<html>
<title> - RESISTING ANTI-SEMITISM AND XENOPHOBIA IN EUROPE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


           RESISTING ANTI-SEMITISIM AND XENOPHOBIA IN EUROPE

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON EUROPE, EURASIA, ENERGY, AND THE ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 29, 2020

                               __________

                           Serial No. 116-94

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-455PDF                    WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                       
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              
                             
                                     
                Jason Steinbaum, Democrat Staff Director
               Brendan Shields, Republican Staff Director
               
                                 ------                                

      Subcommittee on Europe, Eurasia, Energy, and The Environment

                WILLIAM KEATING, Massachusetts, Chairman

BIGAIL SPANBERGER, Virginia         ADAM KINZINGER, Illinois, Ranking 
GREGORY MEEKS, New York                  Member
ALBIO SIRES, New Jersey		     JOE WILSON, South Carolina
THEODORE DEUTCH, Florida	     ANN WAGNER, Missouri
DAVID CICILLINE, Rhode Island	     JIM SENSENBRENNER, Wisconsin
JOAQUIN CASTRO, Texas		     FRANCIS ROONEY, Florida
DINA TITUS, Nevada		     BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania	     GREG PENCE, Indiana
DAVID TRONE, Maryland		     RON WRIGHT, Texas
JIM COSTA, California		     MIKE GUEST, Mississippi
VICENTE GONZALEZ, Texas		     TIM BURCHETT, Tennessee

                                  

                    Gabrielle Gould, Staff Director

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Munzer, Dr. Alfred, Holocaust Survivor, Volunteer, United States 
  Holocaust Memorial Museum......................................     8
Lipstadt, Dr. Deborah E., Dorot Professor of Modern Jewish 
  History and Holocaust Studies, Tam Institute for Jewish Studies 
  and The Department of Religion, Emory University...............    12
Forman, Mr. Ira, Senior Advisor for Combating Anti-Semitism, 
  Human Rights First, Adjunct Professor on Anti-Semitism, Center 
  for Jewish Civilization, Georgetown University, Former Special 
  Envoy to Monitor and Combat Anti-Semitism, U.S. Department of 
  State..........................................................    37
Edwards, Ms. Christie J., Acting Head, Tolerance and Non-
  Discrimination, Office for Democratic Institutions and Human 
  Rights, Organization for Security and Cooperation in Europe....    47
Williams, Dr. Robert, Deputy Director, International Affairs, 
  United States Holocaust Memorial Museum........................    52
Baker, Rabbi Andrew, Director, International Jewish Affairs, 
  American Jewish Committee, Personal Representative, 
  Chairperson-in-Office on Combating Anti-Semitism, Organization 
  for Security and Cooperation in Europe.........................    61

                                APPENDIX

Hearing Notice...................................................    79
Hearing Minutes..................................................    81
Hearing Atendance................................................    82

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Statement for the record submitted from the Anti-Defamation 
  League.........................................................    83
Photographs submitted from Mr. Munzer............................    92
Statement for the record submitted from Rabbi Dovid Asher........    91

 
            RESISTING ANTI-SEMITISM AND XENOPHOBIA IN EUROPE

                      Wednesday, January 29, 2020

                          House of Representatives,
                   Subcommittee on Europe, Eurasia,
                       Energy, and the Environment,
                      Committee on Foreign Affairs,
                                                     Washington, DC

    The subcommittee met, pursuant to notice, at 2:01 p.m., in 
room 2172, Rayburn House Office Building, Hon. William R. 
Keating (chairman of the subcommittee) presiding.
    Mr. Keating. The hearing will come to order.
    The subcommittee is meeting today on a very important 
issue, and we are pleased to have the testimony from very 
important witnesses on resisting anti-Semitism and xenophobia 
in Europe.
    And without objections, all members may have 5 days to 
submit statements, questions, extraneous materials for the 
record subject to the length limitations in the rules.
    I will now make a brief opening statement, then turn it 
over to the ranking member of the full committee for his 
opening statement.
    This week, the world, again, recognizes International 
Holocaust Remembrance Day, a day marking the 75th anniversary 
of the liberation of Auschwitz. Together we mourn the lives 
lost during the Holocaust and honor the stories of victims and 
survivors. Importantly, we also reaffirm our commitment to 
countering all forms of hate and intolerance.
    We are honored to be joined by Dr. Munzer, a Holocaust 
survivor. Anti-Semitism and hate is something we must work 
tirelessly to address in government and across civil society, 
but at its core, we cannot forget the deeply personal nature of 
these harms.
    Thank you for taking the time to join us here today. It is 
important that you and Dr. Lipstadt are here to provide a 
personal and historical perspective on anti-Semitism in Europe 
and around the world. Nazism and fascism led to the State-
sponsored persecution and mass murder of 6 million Jews, as 
well as millions of other innocent victims. It is essential to 
acknowledge that evil does indeed exist. Anti-Semitism and hate 
did not begin with Adolph Hitler and it did not end after the 
Holocaust.
    Hate speech, discrimination, and violence based on a 
person's identity, be it creed, race, sexual orientation, place 
of origin or otherwise, is a scourge we cannot afford to ignore 
at anytime. It is also important to note that given the focus 
of the subcommittee, our hearing today addresses these trends 
in Europe; however, we are seeing similar concerning trends, 
sadly, right here in the United States. One horrific attack 
occurred just at the end of last month in New York in a Rabbi's 
home during a Hanukkah celebration.
    We have seen a concerning increase in anti-Semitism in 
Europe with 28 percent of European Jews reporting they 
experienced anti-Semitic harassment at least once during the 
last year. We also know these incidents often go unreported, so 
we know the actual number is significantly higher than this. 
And as we know, hate and discrimination do not only affect 
European Jews; reported cases of Islamophobia attacks have also 
increased in every country in Europe. And a recent EU study 
found that 26 percent of LGBT people surveyed have been 
attacked or threatened with violence in the last 5 years. 
Jewish cemeteries have been violated with anti-Semitic symbols 
and fires that have been started near--and intentionally so 
started near refugee camps. These numbers are staggering and 
the stories of these violent actions are heartbreaking.
    Many of us familiar with the poem attributed to Lutheran 
Pastor Martin Niemoller, which has been transcribed in 
different ways, but it is engraved in the entrance of the New 
England Holocaust Museum in my home State of Massachusetts. 
Goes as follows: They came first for the Communists, and I did 
not speak up because I was not a Communist. Then they came for 
the Jews, and I did not speak up because I was not a Jew. Then 
they came for the trade unionists, and I did not speak up 
because I was not a trade unionist. Then they came for the 
Catholics, and I did not speak up because I was a Protestant. 
Then they came for me, and by that time no one was left to 
speak up.
    We must do more. This type of violence and hate is 
unacceptable if we want to call ourselves democratic societies. 
Reaffirming our commitment to addressing this is not enough. As 
governments, we must act and we must do the difficult work of 
changing laws and policies as well as the language we use so 
that innocent people are not killed or harassed because of who 
they are. We must also meaningfully engage communities, civic 
leaders, and educators to bring about critical change at the 
grassroots levels.
    That is why I am so pleased to have our second panel 
joining us today. Our experts on that panel have decades of 
experience combating hate from governmental and nongovernmental 
posts, and I look forward to discussing our current efforts and 
what we should do to do better.
    This is a critical time to work together with our partners 
and allies globally. We should share effective solutions, 
coordinate our efforts so that we are putting real action 
behind our rhetoric when we say, never again.
    Accordingly, I am introducing a resolution this week 
recognizing these concerning trends in Europe, and calling on 
all countries to take action together to combat anti-Semitism 
and hate.
    I want to thank our witness for joining us today on this 
important issue.
    I now turn to the ranking member of the committee, 
Representative McCaul.
    Mr. McCaul. I want to thank you, Chairman Keating, for your 
leadership, your passion on this issue, for calling this 
important hearing to examine the rise of anti-Semitism and 
xenophobia in Europe.
    As a son of a World War II veteran, D-Day veteran, a B17 
bombardier who bombed the Nazis 75 years ago to end their anti-
Semitic regime, it saddens me today that we are still 
struggling with the same issues that the greatest generation 
defeated. I have toured Auschwitz and seen firsthand the 
horrors and evils that my father's generation fought to 
destroy.
    A recent report by the EU said that in Europe today, quote, 
anti-Semitism pervades everyday life. This is a tragedy. It is 
unacceptable, and Congress must lead the charge to addressing 
this scourge. This is an international issue and it requires an 
international solution.
    Our first panel will remind us of the tragedy that can 
result if we do not speak out, as the chairman said, speak out 
and take this problem seriously.
    Al Munzer, who will share his story, we thank you, sir, for 
being here today, a very important story as a survivor of the 
Holocaust. And Deborah Lipstadt, one of the world's leading 
experts on the Holocaust, who herself has been victimized by 
anti-Semitic Holocaust denial, which astounds me that people 
could actual deny it happened. She will help explain the 
importance of ongoing Holocaust education.
    And for our second panel, we will turn to the present day. 
Our witnesses will examine the different strains of anti-
Semitism in Europe that are combining to create an atmosphere 
where many Jews fear for their safety. Understanding the 
drivers of this hatred is essential to preventing its spread.
    I am grateful to this administration for taking this fight 
seriously. I have met with their special envoy to combat anti-
Semitism, Elan Carr, who told me about how he travels the world 
working with our partners to identify the best way to fight 
anti-Semitism in their countries. This is a problem in Europe. 
It is also a problem in the United States. And I hope our 
witnesses will offer concrete solutions for how Congress can 
help the administration succeed in fighting this anti-Semitism 
in Europe and the United States.
    This is not a partisan issue in such a partisan time. It is 
not Republican/Democrat. It is American. Back to our core 
values. And earlier this week, the House voted in an 
overwhelming bipartisan fashion to ensure funding for Holocaust 
education in our country.
    I think about my own children today. For them, it seems 
like ancient history. For me, it is one generation away, and it 
is one generation that it is not--it is extinction, 
unfortunately, and it could happen again. And in the words we 
always say, never again. So we are leading by example, I think, 
in the United States with our commitment to understanding the 
poison of anti-Semitism, and now we must help others solidify 
their commitment to this fight.
    So thanks, again, Mr. Chairman for holding this. And I want 
to thank the witnesses for being here today.
    I yield back.
    Mr. Keating. Thank you. Thank you for those words.
    I recognize for a brief statement, Vice Chair 
Representative Spanberger.
    Ms. Spanberger. Thank you to the committee for organizing 
this hearing. And thank you to our witnesses for your 
participation.
    In advance of this hearing, I contacted rabbis and friends 
back home in Virginia. I wanted my questions to be centered in 
their thoughts and shared experiences, because as we talk about 
anti-Semitism in Europe, the deepest impact of anti-Semitism 
facing my constituents are the threats, the crimes, and the 
fear that exists in Virginia.
    I am sure you have seen the images from 2017 when white 
nationalists walked through the streets of Charlottesville, a 
beautiful college town, men with torches shouted ``Jews will 
not replace us,'' and just miles down the road in my district, 
our JCC summer camp was graffitied with anti-Semitic slurs. Our 
high schools and our little leagues have been graffitied with 
language of hate, and a plot to bomb synagogues and attack 
Black churches was uncovered by the FBI a few years ago.
    Central Virginia has one of the oldest Jewish communities 
in the United States, dating back to the 1700's, and in the 
aftermath of a genocide that killed millions of Jews in Europe, 
we are a place where Holocaust survivors settled, raised 
families, and found some level of normalcy after escaping the 
unthinkable and losing everything. We have leaders in our 
community who share their stories of their escapes. The family 
that was warned by a professor, take your children and leave 
Germany, the woman who survived because a kind stranger gave 
her family false papers, and the man who spent months as a 
child living in a potato hole underground after escaping a 
deportation line.
    Central Virginians have advocated for education, seeing it 
as the way to avoid the very rise in anti-Semitism generations 
past had escaped. We have a deeply moving Holocaust museum to 
educate our children, active communities, synagogues, and even 
a regionally known Jewish food festival. And yet as the 
generations of my parents and grandparents worked to root out 
anti-Semitism with community and education, today, we are 
confronted with the stories of my generation and our 
children's.
    High school children in my districts are told, take a 
shower, a dark reference to the gas chambers of concentration 
camps. Young mothers are fearful of having their children's 
religion known. And a rabbi who grew up with the 
incomprehensible knowledge that his great-grandparents and 
other family members had perished en route to a concentration 
camp now must contend with how to lead his family and his 
congregation when his own young children are taunted by 
strangers on the street when wearing a kippah in public.
    The response in Europe and here has been the fortification 
of Jewish spaces, but as another local rabbi noted, the doors 
of houses of worship should be opened to all seekers without 
those inside needing fear, and it keeps me up at night, not 
only the fear about whether I can keep my people safe, but also 
the sadness and frustration about who inevitably gets left out 
on the other side of the locked door.
    Thank you for your participation today.
    I yield back.
    Mr. Keating. Thank you.
    The chair now recognizes, Vice Chair Wagner.
    Mrs. Wagner. I thank you, Mr. Chairman. And I thank the 
Ranking Member Mr. McCaul for this hearing. And I want to thank 
and welcome all of our witnesses today as well.
    We are honored, of course, to be joined for this first 
panel by Dr. Alfred Munzer, a survivor of the Holocaust, one of 
the most unimaginable tragedies in human history, and Dr. 
Lipstadt, who has fought for decades to end the phenomenon of 
Holocaust denialism.
    This Monday marked Holocaust Remembrance Day, and I was 
able to stand in solidarity with St. Louis' Jewish community, 
including six Holocaust survivors. And in a tribute to the 6 
million victims of the Holocaust, the St. Louis Holocaust 
Museum and Learning Center announced its very first expansion 
in 25 years, made possible in part by a Federal grant that we 
were able to work on with them from the National Endowment of 
Humanities. The Jewish community of St. Louis is working to 
ensure the lessons of the Holocaust are never forgotten and to 
give the next generation the tools to end genocide and 
atrocities.
    It grieves and shocks me that anti-Semitism is rising again 
in Europe and the U.S. and, in fact, across the world. The 
United States and its European partners must be leaders in 
examining the root causes of this hateful ideology and ending 
its influence. We remember the millions of victims of genocide 
throughout history, and we commit to working toward the day 
when genocide and mass atrocities crimes are inconceivable.
    As decades pass and new strains of anti-Semitism emerge, 
the testimoneys of survivors, liberators, and witnesses take on 
an even greater significance. So many in our community are 
stepping up to educate the next generation about the horrors of 
the Holocaust. And I believe we in Congress have the same 
responsibility.
    Genocide is preventable. We are very good in the U.S. at 
response on genocide, but genocide is preventable. Anti-
Semitism and other forms of discrimination can be overcome. We 
are haunted by repeated failures and missed opportunities to 
end these tragedies before they begin. There is more the United 
States can do and must do to help vulnerable communities and 
persecuted people around the world.
    Dr. Munzer and Dr. Lipstadt, thank you for your courage and 
your dedication. Again, we are honored to have you here. I look 
forward to your testimoneys and to the testimoneys of our 
second panel of experts as well.
    I thank you, Mr. Chairman. And I yield back.
    Mr. Keating. Thank you.
    Let me introduce our first panel of witnesses. Dr. Alfred 
Munzer is a Holocaust survivor, as well as a volunteer at the 
United States Holocaust Memorial Museum. We thank you for 
coming here and sharing your story and the story of your 
family. We thank you for your service to this country as a 
veteran who served the United States Air Force. Thank you, 
Doctor.
    Deborah Lipstadt is a Dorot professor of modern Jewish 
history and Holocaust studies at the Tam Institute for Jewish 
Studies and the Department of Religion at Emory University. Dr. 
Lipstadt continues to study and publish on these issues today 
with a recent book entitled, ``Anti-Semitism: Here and Now,'' a 
book that I have read myself. It is released just in the past 
year, and it looks at the history of concerning trends we are 
discussing today.
    I appreciate both of you for being here. Look forward to 
your testimony.
    We set a time of 5 minutes. Without objection, your 
prepared written materials will be made a part of the record.
    I will now go to Dr. Munzer for your statement. Thank you, 
Doctor.
    The microphone. There you go.

STATEMENT OF DR. ALFRED MUNZER, HOLOCAUST SURVIVOR, VOLUNTEER, 
            UNITED STATES HOLOCAUST MEMORIAL MUSEUM

    Dr. Munzer. Mr. Chairman, members of the subcommittee, I am 
a survivor of the Holocaust and a volunteer at the U.S. 
Holocaust Memorial Museum, and I appreciate the opportunity to 
share my thoughts as you examine the frightening resurgence of 
anti-Semitism and xenophobia in Europe and elsewhere.
    I was born in the Nazi-occupied Netherlands, and I am only 
able to appear before you because a Dutch-Indonesian family and 
their Indonesian Muslim nanny risked their lives to save a 9-
month-old Jewish baby. Tole Madna, the Madna family, and Mima 
Saina cared for me and protected me from the Nazis for 3 long 
years. They shared their meager food allowance with me because 
I did not legally exist and was not entitled to ration coupons. 
They made sure I did not ever come near a window for fear that 
passersby might see a very different looking child. I slept in 
Mima's bed, and she kept a knife under her pillow, vowing to 
kill any Nazi who may try to come and get me. But what I 
remember most is being surrounded by love and laughter.
    My sisters, Eva and Leah, did not share my good fortune. 
They had been entrusted to a different family but were betrayed 
and denounced to the Nazis and killed in Auschwitz. They were 7 
and 5, two of 1.5 million children killed in the Holocaust.
    My parents too were deported. My father was liberated 75 
years ago by the 80th U.S. Army, but succumbed 2 months later 
to the effects of starvation and lies buried in the former 
Ebensee concentration camp. My mother survived 12 concentration 
camps, and I was reunited with her in August 1945. In 1958, she 
and I immigrated to the United States, in the hope of leaving 
behind the painful memories of the Holocaust.
    I have remained in close touch with the Madna family. 
People asked Tole Madna why he risked the lives of his family 
to take in a Jewish baby. His response was simple: What else 
was I to do?
    The Holocaust deprived me of the guidance of a father and 
the companionship of two siblings, but worse, the solemn 
promise ``never again'' did not spell an end to anti-Semitism 
or to prejudice and hate directed to anyone perceived as being 
``the other.''
    I am a physician, and the Holocaust has taught me that hate 
is a communicable disease that can engulf entire nations and 
continents. We may never eliminate hate from every human soul, 
but perhaps we can take measures to prevent its spread. Like 
the fight against AIDS, the campaign against tuberculosis, and 
the drive to prevent malaria, a campaign against hate requires 
a global commitment that includes all segments of society, but 
especially those who occupy any kind of leadership position.
    There is a prayer on the monument of a mass grave in 
Ebensee that reads: To the faithful companions, the heroes, and 
the comrades of a thousand dead who rest here, and countless 
others of all nationalities and every faith, brothers and 
sisters in a common tragic destiny, dedicated by an Italian 
woman who prays that such incredible sacrifice might turn the 
human heart to good.
    Recent events around the world add urgency to the prayer of 
that Italian woman, and it falls to all of us to answer her 
plea to confront hate, to prevent its spread, and to foster a 
world that celebrates our common humanity.
    I have two photographs with me, Mr. Chairman, which I would 
ask to be included in the record. Thank you.
    [The prepared statement of Dr. Munzer follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Keating. Thank you, Doctor.
    Dr. Lipstadt.
    Dr. Lipstadt. Thank you.
    Mr. Chairman, members of the committee, thank you for 
having me, and more importantly, thank you for holding this 
hearing.
    Anti-Semitism is a prejudice and, as such, it is an 
irrational sentiments. It is not disliking a Jew; it is 
disliking someone because they are a Jew. The etymology of the 
word ``prejudice'' makes its irrationality quite clear: 
prejudge. You decide on a person's qualities before you even 
meet them. It is unrelated to what the person does. To hate an 
entire group because of the behavior of one person or even a 
group of people makes no sense.
    While anti-Semitism is a prejudice and, as such, shares 
many of the characteristics of prejudice in general, it has 
certain unique characteristics that set it apart from these 
hatreds. First of all, it is rooted in a conspiracy theory. As 
such, the Jew is not just to be loathed, but to be feared. We 
see this notion on the far right. According to the anti-Semite 
on the far right, the Jew is engaged in a conspiracy against 
others, a conspiracy designed to destroy White Christian 
culture by replacing Whites with people of color.
    This is what motivated the murder at Pittsburgh, San Diego, 
Halle. This is what the demonstrators in Charlottesville meant 
when they said, ``Jews will not replace us.''
    Second, anti-Semitism is unique because it comes, not just 
from the right, but also from the left. The anti-Semite on the 
left sees Jews as privileged, White, which, of course, is 
ironic. First of all, there are a substantial number of Jews 
who are not White. The estimate in the United States is 12 
percent of the Jewish community is not White, and well over 50 
percent of the Israeli--Jewish Israelis would not be considered 
White.
    Finally, as mentioned, anti-Semites on the far right 
consider Jews to be decidedly non-Caucasian.
    Today, however, we see it not just from the right and the 
left, as been mentioned by some of the members of the 
committee; we see it from Islamist extremists, and particularly 
in Europe in countries such as Belgium, France, Germany, and 
the U.K., and amongst some sectors of the Muslim community, I 
emphasize some, of course, not all, who were not extremists and 
may never engage in a violent action against Jews, have been 
inculcated with the hatred of Jews.
    Irrespective of whether these charges come from right, 
left, Christian, Muslims, or atheists, they rely on the same 
themes: The nefarious Jew manipulating the scene to his own and 
her own advantage.
    What then can we do about it? If it is irrational, must we 
simply throw up our hands in defeat? I think not, even though 
Jews may not present as typical victims of prejudice. In Halle, 
Germany, there was no police guard outside the synagogue on Yom 
Kippur because the mayor rejected the request. That is not 
taking it seriously.
    In 2017, Sarah Halimi, a retired 65-year-old physician, 
mother of three, was murdered in her apartment by a man who 
shouted ``Allah Akbar'' as he threw her out of the window. Just 
last month in a shocking decision, one decried by President 
Macron, the Paris Court of Appeal decided that he was not--he 
was not criminally responsible because he was too high on 
marijuana to understand what he was doing. He understood enough 
to find the one Jewish resident of the building. He understood 
enough to declare that he had killed the Satan. He did not 
randomly go and kill people; he sought out the Jew. Declaring 
him not responsible, that is not taking it seriously.
    The British Labor Party, exemplifying an attitude on the 
left, repeatedly dismisses the claims made by Jews that they 
have been subjected to anti-Semitism. Jeremy Corbyn may be 
gone, but those around him who exemplify this attitude remain. 
They do not take anti-Semitism seriously.
    One of the greatest results of anti-Semitism is Jews 
increasingly going underground. In the Netherlands, there is a 
town where if you want to know the time of synagogue, you have 
to know somebody. There is no listing for the times, there is 
no listing of the address of the synagogue, there is no 
website. That is fear.
    A few days ago, a professor here in Washington, a Jew, told 
me she had gone to Portugal with her husband on a vacation. She 
did not--she reached for an umbrella, did not take the umbrella 
with the logo of the National Museum of American Jewish History 
in Philadelphia because it had a star on it. That is fear. 
Parents in Europe regularly tell their children not to wear 
their kippots; wear hats. That is fear.
    Friends have asked me whether my recent decision to wear a 
Jewish star is smart. That is fear. Jewish parents in New York, 
Berlin, Brussels are taking their children out of Jewish 
schools because they fear for their safety. That is fear. After 
the Shoah, it is inconceivable that, once again, Jews feel 
safer hiding their Jewish identity.
    This is not healthy for Jews or for the societies in which 
they live. We must fight anti-Semitism for these reasons. All 
genocide begins with words. No genocide ever began with 
actions. But there is an even more important reason: We must do 
so because anti-Semitism is a lethal threat to democracy. 
Wherever anti-Semitism has flourished, democracy has withered.
    Thank you very much.
    [The prepared statement of Dr. Lipstadt follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Keating. I thank the witnesses.
    I now recognize myself for just a couple of questions, I 
hope.
    Dr. Lipstadt stated that anti-Semitism is not something 
random. Dr. Munzer, you lost two sisters, you lost your father, 
and you were an innocent boy when this all began. If you could, 
if it is all right, could you share how, from the innocence of 
youth, you came to understand that these acts were not random, 
that they were selected, they were targeted? And how did you 
come about understanding that, coming from the standpoint of 
that innocence, to what you know today, and what was important 
to you in that journey?
    Dr. Munzer. Well, I grew up with the Holocaust all around 
me, so I really had very little understanding in terms of 
differentiating what was normal and not normal. You know, I did 
not understand what happened to my sisters. People would tell 
me wonderful stories about them, and I grew up as a 4-year-old, 
5-year-old being a little bit jealous of my sisters. And then I 
overheard people saying, well, such and such a person came back 
and that person did not come back, and I began to understand 
that my sisters had been taken somewhere and did not come back.
    I also remembered the very first experience I had being 
exposed to anti-Semitism, and it was not long after the 
Holocaust. My mother and I were standing in line to go see a 
movie, and there was a man behind us who saw the tattoo, the 
Auschwitz tattoo on my mother's arm. And he said, there is one 
they did not get.
    So even immediately after the Holocaust, there continued to 
be anti-Semitism in the Netherlands, and it is one of the 
reasons why ultimately we came to the United States.
    Mr. Keating. Thank you so much.
    I remember as a young boy one of my neighbor's, the mother 
of two of my playmates, I did not understand some of the 
symptoms that were traumatic stress--I view it now--that she 
was going through. And there was a tattoo that you just 
mentioned similar to that on her arm, and I did not know what 
it meant and asked my parents, and we had a discussion where my 
parents tried to explain to me something that was hard to 
comprehend as a child. Thank you for sharing your story.
    Dr. Lipstadt, you said Holocaust deniers are wolves in 
sheep's clothing spreading hate but attempting to present its 
rational discourse. The statement struck me, and in this sense 
too: The dissemination of this kind of thought, today it is 
aided by social networking, the internet, anonymity that 
surrounds that. Could you share with us some of the things we 
could do to try and counter that, given these new challenges?
    Dr. Lipstadt. It is very hard to control social media, as 
we all well know. When I started to work on Holocaust denial in 
the early 1990's writing my first book, which precipitated the 
lawsuit against me and the trial, if you wanted to receive 
Holocaust denial materials, you had to get them to a P.O. Box 
from a P.O. Box in a plain envelope. Today, all you have to do 
is put on the internet Dr. Munzer comes from the Netherlands. 
If you Google Anne Frank's diary, depending what you put in 
and, in particular, you know, what is going on, but very often 
the second, third--maybe not the second, the third or fourth 
thing that will come up will be a claim that it is a fraud, you 
know, was written after the war, et cetera.
    So it is very hard to control that, but I think the need 
for education is paramount. But it cannot just be education, 
this is what happened to the Jews, because a kid who hears 
anti-Semitism at home or encounters it on the media is going to 
say, oh, they hated them too. It is got to be well thought out 
education about anti-Semitism, well thought out education about 
Holocaust education. I hope--I am very glad that this bill that 
you mentioned passed, but it is got to be thought out 
structurally very, very carefully.
    Mr. Keating. Well, thank you.
    The chair recognizes Ranking Member McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    And, Dr. Munzer, thank you for that powerful testimony. I 
cannot imagine growing up as a child in that kind of 
environment and having--as I mentioned to you, my father's 
generation, we thought it was destroyed. We thought it was over 
after the war. Now, we are seeing this rise in anti-Semitism.
    How do you--I just find it hard to believe, and who would 
subscribe to being a Neo-Nazi after seeing the horrors of what 
the Nazis did and the awful chapter in history that even people 
in Germany today are, you know, I think, from a conscience 
standpoint feel guilty, and they should. But how do you account 
for this rise in anti-Semitism? That is for both of you.
    Dr. Munzer. We left the Netherlands in 1958 to escape anti-
Semitism and to go to the new world. And we had, you know, this 
is how we looked on the United States, a totally different 
world where people were free of hate. And then we turned on our 
television set, it was our first piece of furniture, actually, 
and we saw little Black kids being beaten up because they 
wanted to go to a particular school, and we realized that 
America was not perfect either. But then, as we saw the 
unfolding of the civil rights movement, we also realized that 
America has the mechanisms to overcome tremendous difficulties, 
social difficulties, and problems.
    And so to this day, even now, even as we see a rise in 
anti-Semitism and acts of hate, I still remain optimistic that 
there are going to be ways to overcome this.
    Mr. McCaul. I appreciate your optimism.
    Dr. Lipstadt, how do you----
    Dr. Lipstadt. I am just reminded, speaking of optimism, 
that the definition of a Jewish optimist is someone who thinks 
things cannot get any worse. So, you know, a Jewish pessimist 
knows that they can and a realist knows that they are.
    I think there are a number of reasons that they do not 
explain it all, but they help us understand. I am not sure 
there are many more anti-Semites in the world today than there 
were 10, 15, 20 years ago, but I think what has happened is the 
moral guardrails that made it unacceptable to say certain 
things, to do certain things are down, so that people feel 
freer to make these comments. I think that is one thing.
    And what happens is then you get, particularly young people 
or not so young people, drawing a swastika, even though they 
may not quite understand what it means. And at the museum--the 
Holocaust museum, they have all sorts of evidence of people who 
even draw it backward, they do not know how to quite draw it, 
which is something they do not need to learn, but--because now 
they know it gets people angry. They know it is an edgy thing 
to do.
    I think we live in a day and age of populism. I do not mean 
by that patriotism. Populism. I am right; you are wrong. And 
the people who are wrong are the--you look for the traditional 
enemy, the people who have long been hated. Remember, anti-
Semitism is called the longest hatred for a reason. It is in 
the weeds, it is in the atmosphere, and it is so easy to pull 
up.
    And today we have been speaking about some of the 
extremists, certainly the Shoah, the Holocaust, and the 
examples I gave, but there is the dinner party anti-Semite, the 
person who says, oh, we just hired a new associate at our firm, 
he is Jewish, but he is very honest, you know, or as happened 
to me in my first job, a colleague took me out to coffee. I was 
teaching at the University of Washington in Seattle. He told me 
that when--I was the first person at the university there--this 
goes back to the 1970's--to ever teach Jewish studies--that 
when he had been on leave when this whole process of 
establishing that position and hiring me had gone on, and he 
said, when I came back and I learned we had hired a New Yorker, 
a woman, and he paused, and then he said, and a Jew, I thought, 
oh, my God, what have we done? And I was sitting there, I did 
not know what to do, and I kept--to my enduring shame, I did 
not say anything. And he said, but, Deborah, you are the best 
thing to ever happen to this department. You are terrific.
    So, you know, you take the negative and you turn it--you 
think you are turning it to a positive, but it is rooted there 
as well.
    Mr. McCaul. Just a quick question, I have limited time, but 
the--this Holocaust denial, I do not understand it because it 
is so real. Anybody that has been to Auschwitz and seen the 
horrors and the evil there, what is the motivation and what do 
they seek to gain from rewriting history and covering this up?
    Dr. Lipstadt. It is very simple: anti-Semitism. For the 
denier to be right, who has to be wrong? Tens of thousands of 
documents, many of them in the archives here and the library 
here at the museum and other places, the National Archives, 
that lay out what was going to happen and what happened. Who 
else? The survivors. Dr. Munzer, all the other survivors who 
have given their testimony. The bystanders, the people who 
lived in the towns and the villages around the camps who lived 
adjacent to the mass shooting sites who saw the trains going 
and filled with people coming out empty. But thousands of 
historians would all have to be in on the hoax or have been 
duped.
    And finally, the perpetrators. Germany says we did it. 
There has been not one war crimes trial since the end of World 
War II where a perpetrator stood up and said it did not happen. 
He may have said, I did not do it, I could not help it, I was 
following orders, and yet these people come along and say it. 
They are anti-Semites. They do not like if Jews get sympathy, 
and they want to gin up anti-Semitism. So it is an irrational 
thing just like anti-Semitism.
    Mr. McCaul. I appreciate it.
    And I yield back.
    Mr. Keating. Vice Chair Spanberger.
    Ms. Spanberger. Thank you very much.
    Thank you for your compelling and very interesting 
testimony today. Thank you for your presence here.
    Dr. Munzer, I would like to begin with you. You told very 
deeply personal and moving story of your family's experience, 
and I was wondering if you could comment on what you see as the 
particulars of the trends, the changes that we have witnessed 
here in the United States or in Europe over the past few years 
as we are seeing noted in the data an uptick in anti-Semitic 
attacks here and in Europe, what are the on-the-ground things 
that you have noticed that we should be reacting to, that we 
should be denouncing?
    Dr. Munzer. Well, one of the saddest things is that surveys 
have shown, for example, that many, many young kids today or 
high school students do not know what Auschwitz was and do not 
know anything about the Holocaust at all. And I think once you 
forget events, you also forget the lesson. And the Holocaust 
does teach us some very important lessons that we--my family 
paid a tremendous price, and I do not want that to go totally 
to waste. I really want people at least to learn the lessons of 
the Holocaust, what hate can do. That hate eventually can lead 
to mass murder. That is the key lesson and that there are ways 
of avoiding that. Education, I think, is probably the very, 
very first thing that needs to happen.
    Ms. Spanberger. Thank you.
    And, Dr. Lipstadt, you mentioned that anti-Semitism rears 
its head on the right, it rears its head on the left, and there 
becomes a chasm between those two things. My question for you 
today is, could you comment on what you have seen in terms of 
the use of anti-Semitism as a dividing factor, as an othering 
factor, as a political motivator? And I would just note, even 
within the recent weeks with all that has been happening on 
Capitol Hill, there has been gross anti-Semitic tropes used 
against many of our colleagues----
    Dr. Lipstadt. Jew coup, right.
    Ms. Spanberger [continuing]. Conspiratorial and such. And 
could you please comment on how deeply--well, I do not want to 
put words in your mouth, but what that is from a scholar's 
perspective like yours?
    Dr. Lipstadt. You know, on one hand, it is shocking, but it 
is not surprising. When there is tension in a society, it is so 
easy to fall back on the usual scapegoats, whether it is people 
of color, whether it is Jews. You fall back on a scapegoat that 
people will believe.
    There was a story told that said that German Jews used to 
tell this joke during the 1930's, that a Nazi came to a mass 
meeting, Nazi official, and he said the Jews did this and the 
Jews did that, with great vigor, and someone yelled out, and 
the bicycle riders. And he turned, why the bicycle riders? And 
the person said, why the Jews? In other words, it is 
irrational.
    So if we look for a rational explanation, we will not find 
it, but it is so embedded as are some other isms, but certainly 
this has this ancient, ancient history that when--in New York 
State, my home State, when a man who may well have been 
schizophrenic, may well have had a mental illness, but when he 
wanted to do something, he took a machete, drove 32 miles to 
Monsey, and went after Jews. Something in him had been 
embedded. He did not just go out on the street and start 
hitting people or cutting people up. He went to find Jews. This 
man who killed Sara--who threw Sara Halimi, the doctor, out of 
the window in Paris, went to find the one Jewish resident. If 
it is in the society, we have got to address it.
    I want to echo what Dr. Munzer said in terms of education, 
but I, again, want to stress that it is got to be well thought 
out. It cannot be simplistic. It cannot be this is just bad. It 
cannot be an hour or 2 hours at the Holocaust Museum, however 
important that is. That will not do it. We have got to think it 
out. We have got to give teachers the training mechanisms, how 
you address this, so the students get it, especially those 
students who may be hearing it at home or now they do not even 
have to hear it at home; encountering it on the internet.
    Ms. Spanberger. I yield back.
    Mr. Keating. Representative Burchett.
    Mr. Burchett. Thank you, Mr. Chairman. Thank you all so 
much for being here.
    I come from Knoxville, Tennessee, and my daddy, when the 
Japanese bombed Pearl Harbor, daddy enlisted in the United 
States Marine Corps and did his service over there on a couple 
islands, one was Peleliu and the other island was Okinawa. And 
after the war, he went to China and fought the Communists. But 
my mama, she lost her brother Roy fighting the Nazis in the 
hedgerow shortly after D-Day. He was too old to go. He 
enlisted. He was heavily educated and he came home. They sent 
him home, and they needed bodies and he went back and, of 
course, he died, I believe, 15 days after the invasion. To the 
day I died, when they play the national anthem, my mama would 
always tear up. I knew she was thinking about her brother Roy.
    And with that, I was fortunate enough to be in the State 
senate in Tennessee with now Congressman Cohen, but he was a 
State senator then and I was a State senator. And he chaired 
the Holocaust Commission and he knew my love of the Jewish 
folks, and he put me on the Holocaust Commission. And I came up 
with the idea of actually building a Holocaust memorial in West 
Knoxville, in Knoxville, Tennessee. And we built that.
    And I will never forget my parents--they are both in heaven 
now--but they were in their 80's, and I was laying sod out 1 
day, and my friend Bernie Bernstein, who is a very prominent 
lawyer in town, had given us the words they put on the stone. 
And I remember this lady came up and said, what are you all 
doing here? And she was not from there. I could tell by her 
accent. And my mama said--see, mama was in her 80's and she was 
about 5-foot nothing, and she said, well, we are building a 
memorial. And the lady said, who is the memorial to? And she 
said, the Jewish folks that died in the Holocaust. And that 
woman, I will never forget, said, we have got enough monuments 
in this town. And my mama, all 5-foot nothing of her, stood up, 
dusted herself off, looked at this woman right in the face, and 
said, not in this park we do not, ma'am. She just--lady moved 
on.
    And my parents were very good people. They were righteous 
people. And I appreciate what you all are doing here and I 
appreciate--we need to let our young folks know that it is not 
just some black and white thing on the history channel and that 
6 million, 6 million people were murdered. And I hear all this 
political correctness that they were eliminated. No, they were 
murdered, they were murdered, and that word needs to be used 
every time. And I thank you all so much and I appreciate your 
passion. I have a lot of passion about that myself. I was 
fortunate enough to go visit Israel this year, and I only wish 
my folks could have been able to do that. That would have been 
something for them.
    And with that, I just had one question, ma'am, maybe, sir, 
maybe both you all want to try to answer this: Which specific 
European countries are you particularly concerned about the 
rise of anti-Semitism? You know, I have heard France. I read 
the news, but you do not know what is getting filtered and what 
is not. And I was just curious what you all think. And sorry 
about my long talk. I have cutoff all the time.
    Dr. Lipstadt. I do not know how you feel about cloning, but 
I would love to clone your mama.
    Mr. Burchett. Yes, ma'am. She was a wonderful woman. If I 
could have her back for 1 minute.
    Dr. Lipstadt. There should be more people like that, 
irrespective of their height.
    Mr. Burchett. Yes, ma'am.
    Dr. Lipstadt. I am going to answer your question and not 
answer your question. Virtually all of them. France is in a 
very, very difficult situation, and we have seen that and we 
have seen it repeatedly. And President Macron has talked about 
it, as have other French officials.
    In Brussels, I was speaking to a woman who is a member of 
the Belgium Parliament, and she told me that she had asked her 
two teenage children not to wear their Jewish star. And she 
said, I was embarrassed to ask them and glad when they agreed 
to put it under their shirts.
    Mr. Burchett. Was this homegrown? Do you think it is 
homegrown or is it imported or is it through the internet?
    Dr. Lipstadt. Some of it is homegrown. Some of it is coming 
from recent arrivals, particularly from Muslim countries, and 
some of it is coming from--increasingly from the right. Halle 
was from the right. Halle, Germany, the attack on Yom Kippur 
was from a rightist. Some of it is coming from Muslims, and 
this is acknowledged. I am part of a Muslim Jewish dialog 
advisory group and we talk about it. There has been an 
inculcation sometimes from Imam, sometimes from YouTube, 
sometimes from newspapers, of antipathy toward Jews.
    So this made someone who will never take a machete, never 
take a bomb, never take--but who sees a Jew on the street and 
knocks off the yamaka. And there is the story of what happened 
in Berlin about a year and a half ago of an Israeli Arab who 
lived in Berlin who had gone back to Haifa for a visit, and one 
of his Jewish friends gave him a kippot, gave him a yamaka, and 
said, but do not wear it in Berlin because you will get beaten 
up. And the young Arab could not believe that, so he decided to 
test it. And he wore it in the streets of Berlin and he was 
attacked, and because he speaks out--he is a native Arabic 
speaker, he understood that the person attacking him was 
someone who spoke with an--Arabic with a heavy Syrian accent 
and beat him up.
    So, you know, you do not have to be Jewish, but--so I 
cannot single out one country. Each one has its problems. And 
the President of Germany just said, we have not addressed it. 
In Germany you have it, again, from the left often expressed as 
an antipathy, a hatred of Israel, and you have it from the 
right, Halle, the alternative for Deutschland, AFD, and others.
    Mr. Burchett. Well, thank you. I have run over my time, but 
if you ever catch me in the hall, I will show you a cool 
picture of my mama. She flew an airplane during the war.
    Dr. Lipstadt. Oh, my God.
    Mr. Burchett. I have bored Ms. Spanberger with this story 
many times, but I am very proud of my mama and daddy. They were 
wonderful people.
    Thank you all so much for being here.
    Mr. Keating. Thank you for sharing that, Representative.
    Representative Wild.
    Ms. Wild. Thank you, Mr. Chairman and to the ranking member 
of this subcommittee, for holding this very important session. 
And thank you, Dr. Munzer and Dr. Lipstadt for what you have 
said.
    I am the proud mother of two Jewish young adults. They were 
raised in a very safe and inclusive community in my district in 
Pennsylvania, perhaps so safe and inclusive that as a young 
mother, I was able to pretend that the specter of anti-Semitism 
would never affect them. Frankly, when their father and I made 
the decision to raise them in the Jewish faith, anti-Semitism 
was the furthest thing from my mind, even though their father 
had told me many stories of his own youth and encountering 
anti-Semitism in his childhood. But I thought we had moved 
beyond that. I was a young and perhaps naive mother. The 
Holocaust was a distant part of history, in my mind and, in 
fact, I became a Jew by choice in solidarity with my husband 
and my children and have never regretted it for a moment, and 
would do it all over again.
    But as I have passed through middle age and, regrettably, 
have probably gotten to the other side of middle age, I find 
that I constantly--I am in fear for my children and for other 
young Jews as they travel around the world, particularly, but, 
of course, here in the United States as well. I am happy to say 
that my children are avid travelers. Their passports have far 
more stamps from different countries than mine ever did at that 
age, but I worry about them constantly and have found myself 
occasionally thinking about whether I should counsel them about 
what to say if they are ever asked if they are Jewish. I have 
not done so, and they have seen me proudly wear my Star of 
David.
    When I was running for Congress, I was counseled by a well-
meaning local political activist that perhaps I should not wear 
my Star of David in my community, which has a very small number 
of Jews. I took that as a challenge and instead went out and 
bought a larger one, which I wear every single day.
    Having said that, you know, I really--I do believe that the 
only way to fight anti-Semitism is to confront it, to talk 
about it, to educate others, to tell the stories.
    Dr. Munzer, your story is one that I will never forget. And 
the story of the family--the Indonesian family that raised you 
I think causes all of us to want to be braver and more vocal 
and do more than we have done.
    So with all of that said, and I am sorry that I have taken 
so much time, but I felt that it was important to tell you 
that, I come back to your remarks, Dr. Lipstadt, that education 
is a good thing, but we need to do it in a very well thought 
out way. And I would like you to elaborate a little on that.
    As a member also of the Education and Labor Committee, I 
spent a lot of time thinking about what we do in our schools. 
What do we need to do to educate better on this subject?
    Dr. Lipstadt. First of--the reason that I said Holocaust 
education is very important, but it is not a silver bullet, 
because if done, even in a good, well-meaning way, well-
intentioned, a child can walk away and say, well, the Nazis did 
not like the Jews either. I mean, you see that with other study 
of other isms. They did not like them, I have good reason not 
to like them.
    I think there has to be understanding of the history of 
anti-Semitism, of the way its ubiquitous nature, starting in 
medieval Christianity, moving out of the church, to Karl Marx, 
who hated all religions, to the pseudoscience of eugenics, to 
the Nazis, how it migrates, how it makes no sense. The anti-
Semite charges. Jews are revolutionaries. They are all 
communists. Jews are Rothschilds and Soros and--last time I 
checked, you cannot be a Communist and a Rothschild at the same 
time. Jews are pushy; they are always trying to get into places 
where they are not wanted. Jews are clannish; they stick 
together. Last time I checked, you cannot be all those things. 
That it is irrational.
    So that the way of doing--it cannot be just, this is a 
horrible thing that happened, but the bigger meaning, how it 
started. The Holocaust would have been impossible--and Dr. 
Munzer knows this, he has volunteered at the museum--the 
Holocaust would have been impossible without the help of 
hundreds of thousands of people. Many of those people active 
helpers, but many of them just looked the other way. And as the 
late Elie Wiesel said, and many others have said, when it comes 
to evil, there is no bystander.
    If you walk out of a building, you see somebody being 
beaten up and you do not do anything--maybe you cannot 
intervene, there is three of them and there is one of you, but 
you do not call for help or something, you are not neutral. You 
have sided with the oppressor.
    Ms. Wild. Thank you very much. Unfortunately, my time is 
up, but I very much appreciate what you have said.
    Mr. Keating. Thank you, Representative.
    We are out of order because Representative Pence has 
yielded and Cicilline, but Representative Deutch chairs the 
Ethics Committee, and so the other members have let him go 
forward, so I thank those members and recognize Representative 
Deutch.
    Mr. Deutch. Thanks. Thanks very much, Chairman Keating. And 
thank you very much to our witnesses for being here.
    I had the honor last week of joining with leaders--a 
delegation led by Speaker Pelosi and leaders from nearly 50 
countries at Yad Vashem to mark 75 years since the liberation 
of Auschwitz. And then we stopped at Auschwitz-Birkenau on our 
way there.
    And the question that I have for both of you, in light of 
the conversation that we are having here is, while it was--it 
was moving to be in a room with all of these world leaders 
pledging--remembering the Holocaust and pledging to fight anti-
Semitism, it is hard not to feel like it is a distinct moment 
in time and everyone goes back to everything that they are 
doing and does not think so much about this until the next act 
of violence anywhere in the world.
    And I guess, Dr. Lipstadt, the question I have for you is, 
how do we get to a point where there is no tolerance for any 
act of anti-Semitism? How do we--and how do we drive home the 
point that you have made eloquently and lots of us try to make, 
that if there is anti-Semitism in your country, there is a--it 
is your country's core that is really at risk----
    Dr. Lipstadt. Right.
    Mr. Deutch. How do we do that?
    Dr. Lipstadt. There is no easy answer. First of all, I 
think you sit on this committee, this subcommittee of Foreign 
Affairs Committee, I think we have to call out leaders of other 
nations who engage in anti-Semitism, whether directly, overtly, 
or not, even if they are our friends. If they try to rewrite 
history--we see an attempt to rewrite history in Poland, we see 
an attempt to rewrite history in Hungary and Lithuania and 
other places, and Russia about the Soviet Union's--I think we 
have to call them out. And then at the other end of the 
spectrum, not in terms of heads of State in governments, we all 
have to become the unwelcomed guest at the dinner party.
    If someone says something--you know, to paraphrase our 
friends at the TSA at the airport: If you hear something, say 
something. If someone makes a crack, you cannot let it just go 
by. You may not change the mind of the person who made the 
crack, who said this anti-Semitic kind of, oh, I am just 
joking, or racist or whatever it might be, but you have got to 
telegraph the message to the other people at the table, 
especially but not only the young people, that this is not 
acceptable. And so I think that that is another extremely 
important thing.
    And the final point, then, with this I will stop it, we 
also have to understand or other groups--this is not a Jewish 
problem, you know. Rape is not a women's problem. You want to 
stop rape, ask the rapist. You want to stop anti-Semitism, ask 
the anti-Semite. But a few weeks ago, I went up to New York to 
participate in the march and the rally, and as we walked across 
the Brooklyn Bridge, I found myself walking, I get verklempt, 
to use the Saturday Night Live term, not a Yiddish term, next 
to a woman carrying a sign, this Catholic hates anti-Semitism. 
And I thanked her for being there and she said, oh, no, do not 
thank me. It is our problem.
    Mr. Deutch. And she is right. And for every opportunity 
that we have to hear powerful survivors like Dr. Munzer, for 
every opportunity we have to hear that, there are a hundred or 
a thousand people on social media right now----
    Dr. Lipstadt. That is right.
    Mr. Deutch [continuing]. Posting things that there can be 
no--that no one should be able to defend. And I--I guess I 
would finish with this question: As we spend our time thinking 
about the role that technology companies have here, you cannot 
hide behind a claim that we are just putting the information 
out there, when the purpose of your company is a for-profit 
venture and, in fact, you are profiting by anti-Semitism that 
gets--that gets rebroadcast over and over and over again, can 
you?
    Dr. Lipstadt. Not at all. You had testifying here in 
Congress--I do not know what committee, but the head of one of 
those companies who was proudly raising his children as Jews 
saying that when it comes to Holocaust denial, we are not going 
to stop it, we are just going to be neutral because everybody 
has a right to their ideas. The social media--this is beyond my 
expertise, but social media platforms need to take some 
responsibility, and maybe we need to have the urging of 
governmental leaders. When it comes to hatred, there is no 
neutrality, whether it is anti-Semitism, whether it is racism, 
whether it is homophobia, whether it is hatred of Muslims, 
whatever. There is no neutrality when it is hatred.
    Mr. Deutch. Mr. Chairman, if I may, it is an accurate point 
to say that everyone has the right to have whatever views they 
hold.
    Dr. Lipstadt. Absolutely.
    Mr. Deutch. That said, if anyone in this room were starting 
a business right now, and part of the decision at the outset of 
that new venture was to decide whether there should be some 
part of it devoted to the espousing of hatred and racism and 
anti-Semitism, everyone here would say, nope, that cannot be a 
part of what we are doing, and it shouldn't be a part and it 
shouldn't be tolerated. And I agree with you that it will 
continue until, I am afraid, until this Congress acts to stop 
it.
    And I yield back. Thanks, Mr. Chairman.
    Mr. Keating. Representative Pence.
    Mr. Pence. Thank you, Chairman Keating, for bringing 
together this hearing.
    And thank you, Dr. Munzer and Dr. Lipstadt, for being here. 
I am a Catholic who hates anti-Semitism. It is part of the 
Pence family business, by the way, OK.
    I am going to go off something that Dr. Lipstadt said, but, 
Dr. Munzer, maybe you can weigh in on this one too. I am 
talking about education and the place--let me ask you where 
you--where higher education was in educating anti-Semitism in 
this country and where it is today?
    Dr. Lipstadt. We see a real problem on many campuses. Not 
all campuses, not every campus is a hotbed of anti-Semitism, 
but what we have seen on campuses primarily the way it 
expresses itself there is an antipathy toward Israel. And I am 
not talking about criticism of Israeli policies. No intelligent 
person would think that criticism of Israeli policies 
constitutes anti-Semitism. You want to read criticism of 
Israeli policy? Read Haaretz or go to the Knesset if you have 
criticism of the policies. But it is holding Israel to a 
different standard. It is attributing Israel's successes or 
achievements to anti-Semitic--``Well, they control the media. 
They control the press. They do not allow any criticism.'' It 
is an inherited hatred that is not for everyone but often has 
anti-Semitism at its core. And that has become a real problem 
on campus.
    Emory, which is my university, I have been there many 
years, is essentially a fairly apolitical campus, and the 
Jewish students who wear kippot or openly identify have had 
terrific experiences, but in this past year, they have begun to 
hear anti-Semitic cracks, to see those kind of things.
    And the people who do that, they are not the faculty, but 
the students feel they have gotten permission to say that.
    Mr. Pence. Where did that permission come from?
    Dr. Lipstadt. Well, sometimes it will come from a faculty 
member, and sometimes it will come from the larger society that 
this kind of thing is OK. It is those moral guardrails that I 
was talking about. ``The moral guardrails are down, and I can 
make that kind of crack.'' It is very disturbing, and I think 
it needs to be seriously addressed.
    You also have another problem on certain campuses, and 
there are, you know, thousands of campuses in the United 
States. There are people who are in charge of diversity 
programs, provosts or whatever, or just the people in the 
administration who do not get it. And I am not saying that they 
are doing this nefariously, but it is hard for them to grasp 
that a Jewish student who looks privileged, who may not be 
privileged but looks to them as White, looks to them as--you 
know, comes from a stable home, has advantages. When they come 
in and say, you know, ``I have been subjected to an anti-
Semitic barrage or an anti-Semitic crack by a student in my 
dorm,'' or whatever it is, it is often hard for them to grasp 
that this person is the object of prejudice because their view 
of the person is going to be the object of prejudice does not 
look like this person.
    And I am very careful about making analogies to the 
Holocaust. Today is not the 1930's. When I was once at the 
Holocaust Museum, a survivor told me the story of 
Kristallnacht, November 1938. He went to a Jewish school, a 
boarding school because the school in his town, he could not go 
to anymore. All the teachers were Nazis, and he was getting 
terrible treatment. So his parents sent him to a boarding 
school, a Jewish boarding school in a larger town.
    November 1938. The synagogue next door, next to the school 
is burning. The teachers come in and yell: Get out, get out.
    And these little kids, 9, 10, 11 years old, go running out 
in their pajamas, and they say to one another: Well, where 
should we go?
    And one of them says, well, you know, like Mrs. Rogers told 
her son Fred, ``Find the helpers.'' They said we are going to 
go to the policeman. So they ran up to the policeman, and he 
looked at them and sneered and said, ``I do not take care of 
Jewish children,'' and sent them away. And, finally, they found 
some Jews on the street to help them.
    Today is not that day. Today we have--I am sitting here in 
the Congress of the United States with Dr. Munzer, a survivor 
of the Holocaust, giving testimony about anti-Semitism. We hear 
it being addressed seriously from so many different quarters. 
So today is not that day, but there are enough forces on the 
right and on the left who have given it quarter that it 
shouldn't have.
    Mr. Pence. Can Dr. Munzer answer that question, please?
    Mr. Keating. Doctor.
    Dr. Munzer. By the same token, we are talking about 
education, through the Holocaust Museum, I have had the 
opportunity to speak, you know, to dozens or hundreds of groups 
by now of high school students, and I am absolutely struck, you 
know, how receptive they are to the message, to learning the 
history of the Holocaust and learning the lessons.
    Last year, I was in a small town in Arkansas, Morrilton, 
Arkansas, and I spoke to several thousand students over several 
days. I really wasn't sure whether they would get the message. 
And then, first of all, they asked some wonderful questions. 
Even though this was a huge group, it was well organized. And 
then I got a stack of letters which very much made it clear 
that they got the message. One of them was very simple. They 
said: You know, we had a bullying problem in our school, and 
now, thanks to you, it is much better.
    Mr. Pence. Thank you.
    Mr. Keating. Representative Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman, and the ranking 
member for calling this very important hearing, and it is a 
great honor to hear both from Dr. Munzer and Dr. Lipstadt, and 
thank you for being here.
    Dr. Munzer, thank you for sharing your story, and I think 
it is incredibly important that people all over the world 
continue to hear directly from Holocaust survivors and those 
who have been impacted by anti-Semitism today. We know that 
today's children are the last generation that will have the 
opportunity to see and hear for themselves directly from 
survivors, and it is our responsibility as a result to be 
certain that we keep your voice alive and the voices of other 
survivors to share your story and, most importantly, for all of 
us to absorb the lessons of the Holocaust so that we can work 
together to prevent future instances of hate and bigotry and 
devastating brutality.
    But I think as your testimony, both of your testimoneys, 
reveal, this is a scary time for Jews all over the world. And 
despite my Italian last name, I am Jewish. I think we have seen 
the rise of neo-Nazis and white supremacist movements partly 
being fueled by the ability to communicate online and a rise in 
anti-Semitic attacks in the United States and around the world 
and of course, particularly in Europe.
    And what I am particularly interested in, Dr. Lipstadt, we 
have a Holocaust--what was a Holocaust museum in Rhode Island, 
and we changed it into a Holocaust education center because we 
recognized that part of the importance of teaching the lessons 
of the Holocaust was to make sure that people understood the 
history and the horrific murder of millions of Jews and others 
but also to learn of the current dangers of bigotry and hatred 
and intolerance.
    And so it became really an education center, and we have in 
Rhode Island, I am proud to say, mandatory Holocaust education 
in the public schools. So I am curious to know what other kind 
of educational lessons we should learn to make education about 
the Holocaust useful in terms of not only teaching people 
history but making sure we do not repeat it and whether or not 
there are examples that you think we should look to and what 
role Congress might play in promoting that kind of education to 
prevent a future example of that kind of----
    Dr. Lipstadt. I think we just heard an example from Dr. 
Munzer of his experience in the small town in Arkansas. When 
someone can speak in the first-person singular, ``This is my 
story, this is what happened to me,'' it has a tremendous 
impact. I am in residence at the Holocaust Museum this year as 
a Senior Research Fellow, and sometimes, when I walk through 
the lobby, there is a desk, Talk to a Survivor, and you are 
often sitting there. And I watch--I stand in a little off in 
the corner, but I watch young people of all colors, all faiths, 
all ages, middle school, high school, hanging on every word 
that is being said.
    And when I bring a survivor to my class, when I first 
started teaching, I would decide, did I want a survivor who was 
in a camp? Did I want a survivor who was hiding? Now I just 
want someone who is vigorous enough to be able to come and 
speak.
    So that first-person singular is so important. I have 
cousins who grew up in Cincinnati, which was--even Ohio was 
still a Southern town, and they are about 15 years older than I 
am. I came from a large family. And they grew up knowing--one 
of the people who worked for their father had been born a slave 
on a plantation. And so they grew up knowing his story. And 15 
years older than I am, slavery has a different resonance 
because they have heard the first-person singular.
    I wish all survivors, as we say in Jewish tradition, 120 
years, the lifespan of Moses, but soon that will go away. And I 
think what the museum is doing and the education program there 
is something, as you begin to craft these educational programs, 
as you give advice, you know, to different--whether it is on 
the State level or the national level that those lessons, it is 
not a simple thing, ``Just bring them to the Holocaust 
Museum.'' It is got to be more than that.
    Mr. Cicilline. The other question I have is I think one of 
the other challenges we face is the ability to quickly and in a 
very profound way disseminate false information over the 
internet and the use of social media, which compounds, I think, 
this rise in anti-Semitism because it is just easier to 
transmit false hate speech and information to millions and 
millions of people, you know, with the stroke of--you know, one 
stroke of a keyboard. And I am wondering what you see, you 
know.
    I am in the midst of an antitrust investigation of a big 
large technology platforms, and they have enormous market 
power. But their failure to in any meaningful way curate what 
gets put on a platform and shared broadly and, in fact, some of 
the most contentious hate speech engenders the biggest reaction 
from consumers on the internet.
    Do you think that these platforms have a greater 
responsibility to manage or curate particularly hate speech, 
which is on these platforms and being disseminated and 
contributing significantly, in my view, to the rise of anti-
Semitism?
    Dr. Lipstadt. Yes. Very simply, they have a big 
responsibility. They have the power--look, I am bringing coals 
to Newcastle telling you this--you know this from your work far 
better than I. They have a tremendous responsibility, and when 
it comes to hate, irrespective of who the object of the hate 
is, there is no neutrality. There is no neutrality. And to say, 
``Well, we are just a platform and anything goes,'' it is not--
you know, this is not an issue of freedom of speech. Everyone 
has the right to, you know, as the Brits say, make an arse of 
themselves, but this is much more than that. This is 
engendering, inculcating, and it has a snowball effect, a 
tremendous snowball effect.
    Mr. Cicilline. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Keating. Representative Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    Thank you, first, for your testimony. It is tremendously 
important to hear from you, Dr. Munzer, your life story, Dr. 
Lipstadt, your understanding and ability to articulate the 
truth of what has taken place and the hurt that hate causes, 
that anti-Semitism causes. I have been sitting hearing and 
listening and looking and watching the audience, especially Dr. 
Munzer, as you gave your testimony. I could see the hurt in 
most of just about anybody in the audience.
    And for me, Dr. Lipstadt, you said that hatred is a threat 
to democracy. I agree with that, but I think it is more than 
that. I think hate is a threat to humanity, to all of us 
because that is what this is. It affects each and every 
individual no matter where you come from, no matter what your 
religious belief, no matter what your ethnicity is, and we have 
got to say something about it.
    I am a firm believer and follower--you talk about the civil 
rights movement and Dr. King and, you know, a number of his 
quotes and words, and he says: Our lives begin to end the day 
we become silent about things that matter. Anti-Semitism, 
hatred, it matters. And we have got to stand up and speak out 
about it.
    And for me, I wanted to cancel all the meetings that I had 
because I thought I had to be here because one of the things 
that I know as an African American, and given the history that 
you talked about here, one of the things I wanted to make sure 
when we are talking about civil rights and other issues, I 
think it is necessary for people who do not look like me to be 
on these microphones talking about it or to be in the audience. 
So this should not be a situation where it is just individuals 
of Jewish heritage. It has got to be something where all of us 
are involved and all of us stand up.
    You know, it just seems to me the trouble that we are 
having today in the world, whether we are talking about Europe 
or the United States, we are thinking that certain speech is--
you talked about freedom of speech. Well, to me, the day that 
hate speech becomes acceptable, freedom of speech ends because 
that is a danger to all of us. And so we have got to stand up 
and speak out about it. Dr. King also said, you know, people 
are not going to remember the actions of our enemies but the 
silence of our friends. So we have got to stand up.
    I think I have an obligation whenever I see or hear of the 
opportunity to talk about fighting anti-Semitism, I have got to 
make sure, but not only in places like this, because you are 
right. If I am in a local meeting and I hear somebody that 
utters something that is anti-Semitic, I have an obligation to 
say: That is not appropriate. You cannot do that. That is hate.
    I know when I talk about racism, I thought the same--you 
know, the same thing, and that is what this is all about. And I 
am concerned, you know. I like your optimism. I think that 
optimists--I am optimistic also. I think that this is--the 
United States is still--we have been able to overcome a lot, 
and we have still got a lot to overcome, but we will do that.
    But I do get concerned when I look at Europe and I look at 
the United States and when I see governments accepting and/or 
even to some degree running on anti-Semitic, you know, they do 
it in ways that try not to be pronounced, but everyone 
understands those little things. Whether you are a Member of 
Congress, whether you are a member of a Parliament someplace 
else, those things that we have got to make sure that we stand 
up and we talk about.
    So I guess I am almost out of time, but I just feel 
passionate and concerned, concerned. We just marched over the 
bridge together, over the Brooklyn Bridge walking together with 
my friend, Michael Miller, in New York. I felt honored to be 
there and honored to see the number of good people there 
because I truly believe when good people are talking loudly, I 
do not think that necessarily we are going to be able to in one 
phase end folks who have hatred in their heart, but I do want 
to silence them. I do not want them to feel that they can be 
free to talk and say anti-Semitic remarks and not going to be 
scolded about it.
    Dr. Lipstadt. We live in a day and age where haters have 
been emboldened, and from your remarks, I would say we have to 
embolden the good people.
    Mr. Meeks. That is exactly right. So, again, I just want to 
thank you for being here. Thank you, Mr. Chairman, for 
conducting this hearing and having it and keeping it focused 
because we can never sit back and take it easy and take things 
for granted because if we do, we allow history to repeat 
itself, and that is one thing that I think that we all have an 
obligation is to make sure the ugly part of history does not 
have the opportunity to repeat itself. And as soon as we see 
it, we have got to stamp it out. And by you doing this hearing, 
we are trying to stamp it out. Thank you, and I yield back.
    Mr. Keating. Thank you for your words.
    Representative Costa.
    Mr. Costa. Thank you very much, Mr. Chairman, and I want to 
thank those witnesses who testified today. Dr. Lipstadt and Dr. 
Munzer, your testimony, I think, is as relative today as it was 
75 years ago. As we recognized the anniversary of the 
liberation of Auschwitz, Monday I was honored to participate at 
the United Nations on that anniversary with the Secretary 
General and Ambassadors of Israel and Germany and other U.N. 
nations to recount what took place 75 years ago.
    And I am not sure that my comments will add anything to 
what has already been discussed except that I think, Dr. 
Lipstadt, you, I think, for all of us pointed out what is clear 
and evident, that anti-Semitism at its very root is hate. And 
hate, sadly, has been a part of man's history from the very 
beginning. I am hesitant to say it is a part of nature, our 
human nature, but it seems to have been a pattern, certainly.
    I note that, you know, what took place during the Holocaust 
was predated by the Armenian genocide, the first genocide in 
the 20th century, which was predated by horrific acts in the 
19th and the 18th century. And you can go back--I am a student 
of U.S. and world history, but to the Inquisition.
    The Secretary General of the United Nations, Antonio 
Gutierrez, in his comments marked by the dark history in 
Portugal when some of the most important members of the 
community who were Jewish were asked to either--to leave during 
that inquisition, that time period with Spain. They were 
rivals, but they had to live together, sort of, or to convert, 
which some of them did--my familyis a reflection of that; we 
are Marrano--or to go underground, and the Jews in Portugal did 
all of the above. Some left, some converted, and some went 
underground.
    But it gets back to hate. And I have got a fellow who is a 
professor in my office who has got a very interesting book that 
he wrote last year called ``Hitler's American Friends: The 
Third Reich Supporters of the United States during the 
1930's.'' Interesting. Interesting prominent people in America 
in the 1930's, people who had investments in Nazi Germany.
    And the story that you told, Dr. Munzer, about your own 
personal experience, I had a dear friend whose mother was 
Dutch, and she wrote an interesting short story about the 
bicycle paths, these Dutch women who would ferry Jewish babies. 
And as the Nazi soldiers would pull them aside as they were off 
their bicycle with the little baby, they would, with guns 
pointed, urge them to demonstrate that that was their child by 
seeing whether or not those women could nurse the child. Part 
of your story, Dr. Munzer.
    And so I think when we talk about all of these points in 
history that go back thousands of years, it gets back to hate. 
How do we combat hate? Dr. King said, you know, hate can only 
be overcome by love, to paraphrase him. We have got to figure 
out a better way to deal with it. Or in that great play in 
South Pacific: You have got to be taught, taught very carefully 
to hate.
    And, sadly, history has indicated time and time again we 
are very good at teaching hate. You can see that in the 5,000 
or more radicals that left Europe to join Isis in the last 2 
years, to be a part of that hate.
    So we must combine all of our collective resources, I 
believe, Mr. Chairman, and the efforts of this subcommittee and 
the efforts of those of you who have been so engaged to try to 
do in every possible way to overcome that hate. Thank you very 
much, and I have exceeded my time.
    Mr. Keating. Representative Trone.
    Mr. Trone. Thank you, Chairman. Certainly the hate that 
Congressman Costa speaks about has touched, you know, so many, 
so many people across the world now. And I mean, members of 
this panel ourselves, my oldest daughter received her Hebrew 
name at the Tree of Life Synagogue in Pittsburgh where we had 
the atrocity.
    And you know, so we have kind of worked to make it a point 
that everybody has got to hear these stories as long as they 
possibly can. And the work you are doing, Dr. Munzer, is just, 
so important for so many people as we move forward and try not 
to let it slip away. Our staff is going to be at the museum on 
Monday, and they are going to be touring there just so we all 
make sure we have a direct appreciation.
    Your story is such a powerful one and, then again, the 
story of an immigrant that reached the top of your profession, 
another powerful story that speaks to the diversity and how 
awesome it is for America to create the country that we have. 
But you know, as you testified, those personal interactions 
with the visitors at the Holocaust Museum are so important to 
really understand the horrors of what took place.
    Has anybody in Europe at different museums--and I visited a 
number throughout Europe. Do they have anything where folks are 
there to share those personal stories and have an opportunity 
for, for personal interaction?
    Dr. Munzer. I am not sure.
    Dr. Lipstadt. Yes. There are a number of museums. Certainly 
in England, the Holocaust Educational Trust, and England is now 
building a memorial which will have an educational program. 
There is Memorial De La Shoah in France, in Paris. There are 
other examples. Nothing of the significance, I think, and the 
gravitas that you have of the Holocaust Museum located a few 
steps from the National Mall, located within sight. I look out 
my window, and I can see the Jefferson Memorial. I can see the 
Washington Monument.
    But there are places. There are places, and they need 
support. The Holocaust--the Auschwitz Museum needs support. It 
is being pressured by the government to sort of shift the story 
a little by the Polish Government. There are places, but I 
think, again, as Dr. Munzer has so exemplified, that ability to 
hear the story told in the first-person singular. No professor, 
however scintillating they may be and however compelling they 
may be, can match that first-person singular.
    Mr. Trone. Agreed. As we look at extremist anti-Semitic 
rhetoric, it is entering everywhere in Europe, particularly 
mainstream politics. What can a civil society and other elected 
officials like ourselves or multi, national organizations, what 
can we do to help hold our public officials accountable for 
this rhetoric?
    Dr. Munzer. Well, one of the programs that I was involved 
with and exposed to was a few years ago was a State Department-
run program that brings students from overseas to the United 
States to learn what it is to live in a multifaith society. The 
specific experience I had was with a group of students from 
Indonesia, the largest Muslim country in the world. These 
students had never met anyone who was Jewish. They had been 
exposed to a lot of anti-Semitism, actually.
    And I told them my life story with photographs, and at the 
very end, I said: You know, one memory I have of Mima Saina, 
the nanny who take care of me is that she used to sing a 
lullaby to me, and it was called Nina Bobo in Indonesian.
    And the entire group of about 40 students started singing 
it unison. And after that, these students embraced me, hugged 
me and said: You know, we are family. I retell that story very 
frequently because I think that is the ultimate message is to 
get across the idea that we are all part of one human family.
    Mr. Trone. I think it is absolutely crucial. I have about 
six mosques in my district, and I speak to them on Friday 
afternoon after prayers, and we always talk about the fact that 
they are now being singled out in a lot of ways also, and this 
is all part of a continuing of hate crimes and they need to 
hear that we are with them. And after the incident in 
Pittsburgh they came to our temple, and they were with us. And 
that example is just so crucial that we all--we all stand 
together. Thank you.
    Mr. Keating. Thank you.
    Now, Representative Frankel is not a member of the 
committee, heard about this hearing, and rearranged her whole 
schedule today and has joined us and certainly always welcome 
here.
    Representative Frankel.
    Ms. Frankel. Thank you for allowing me to participate, and 
thank you to our speakers today, honored to have you here.
    I am going to ask all my questions at once, and if you are 
able to answer, I hope you do.
    No. 1 is, could you assess the European governments' 
response to the rise in anti-Semitism? Are they sharing data 
with each other? Is this being addressed at the EU level? And 
what, if anything, can the U.S. Government do in this regard? 
There we go.
    Dr. Lipstadt. Well, let me say that you are going to have 
witnesses who follow us who probably are much----
    Ms. Frankel. OK. Well, I am happy to--you know, I am going 
to--actually, just to let you know. I am going to step out for 
a quick meeting, but I am going to come back, and if you want 
to wait----
    Dr. Lipstadt. They know in the weeds of that, but I will 
only say one thing.
    Ms. Frankel. OK.
    Dr. Lipstadt. And that I think our government has to call 
to account both those who are friends and those with whom we 
are not so friendly. When they begin to play with history, it 
is a steady slope downwards. They are playing with history and 
saying: We were not responsible. We did not do. We did not--
whatever it might be.
    It is dangerous. But about the specifics of the different 
governments, I think the next panel is much better equipped.
    Ms. Frankel. All right. Well, I will tell you what, Mr. 
Keating. Let me yield back. I am going to step out for a quick 
meeting, and then I am going to come back, and the panel--where 
is the next panel? You heard my question. Be thinking it. In 
fact, I will be right back.
    Mr. Keating. Thank you.
    Ms. Frankel. Thank you.
    Mr. Keating. I want to thank our witnesses. I just--you 
know, your testimony had the effect--I have been through many 
hearings. Seldom have I heard my colleagues open up and share 
so much of themselves, their stories as I have today, and I 
think that was because of your testimony and your presence 
here. It is deeply appreciated. It is very important. Thank you 
for being here, and we will all work on this together, not just 
in Europe but in our own country, in our own neighborhoods, in 
our own schools, and at our own dinner tables.
    Dr. Lipstadt. Thank you.
    Mr. Keating. Thank you both.
    As our first panel leaves, if we could assemble our second 
panel, and we will have people coming in and going. We had a 
special member briefing on the coronavirus in the midst of 
this, so you will see people coming in and coming out, but we 
will take a few moments to recess and assemble the second 
panel.
    [Recess.]
    Mr. Keating. Mr. Ira Forman is a senior advisor for 
combating anti-Semitism at Human Rights First, and an adjunct 
professor on anti-Semitism with the Center for Jewish 
Civilization at Georgetown University. Thank you for being 
here.
    Ms. Christie Edwards is the acting head of the Department 
on Tolerance and Non-Discrimination in the Office for 
Democratic Institutions and Human Rights at the Organization 
for Security and Cooperation in Europe. Thank you so much for 
being here as well.
    Dr. Robert Williams is the deputy director of international 
affairs at the United States Holocaust Memorial Museum. We have 
heard a great deal from the first panel about the museum. I 
think, as most Members of Congress, have been there. It is one 
of the most moving experiences people will have in their life.
    Rabbi Andrew Baker is director of international Jewish 
affairs at the American Jewish Committee as well as the 
personal representative of the Chairperson-in-Office on 
Combating Anti-Semitism at the Organization for Security and 
Cooperation in Europe. Thank you so much for being here. We 
appreciate your time.
    I think there were questions raised. A lot of the first 
questioning for the first panel was unique for hearings. I 
think there was a lot of people sharing their own experiences, 
but many of the questions they have as their time ran out could 
be appropriately addressed with you as a panel, and I am 
looking forward to that.
    I will go with Mr. Forman for your statement. Thank you 
very much. We will set a time as we do with the first 5 minutes 
for the opening statements. Anything else with written 
statements can be for the record. Mr. Forman.

  STATEMENT OF IRA FORMAN, SENIOR ADVISOR FOR COMBATING ANTI-
    SEMITISM, HUMAN RIGHTS FIRST, ADJUNCT PROFESSOR ON ANTI-
     SEMITISM, CENTER FOR JEWISH CIVILIZATION, GEORGETOWN 
  UNIVERSITY, FORMER SPECIAL ENVOY TO MONITOR AND COMBAT ANTI-
               SEMITISM, U.S. DEPARTMENT OF STATe

    Mr. Forman. Thank you, Chairman Keating, and members of the 
subcommittee for the opportunity to appear today. I am 
especially appreciative that the subcommittee is holding this 
hearing. Shining this type of congressional spotlight on the 
problems is exactly what international political actors who 
dabble in anti-Semitism fear the most. I would hazard a guess 
that no one on these two panels would disagree with the 
statement that anti-Semitism has increased worldwide in recent 
years. There is lots of data to prove this. Moreover, if one 
talks to Jewish community leaders in any European country, you 
will get the same answer.
    Of course, in the U.S., we cannot ignore the spike in 
violence, anti-Semitic violence in the last few months. It is a 
wakeup call for the American Jewish community and for the 
United States. Yet, for all of our problems here, the smaller 
Jewish communities in Europe I believe face much more immediate 
and existential threats from anti-Semitism.
    To effectively fight anti-Semitism, we must first 
understand its nature and where in society it is located. This 
is no simple task. Today's anti-Semitism takes multiple forms 
and mutates. In my written testimony, I cite three European 
countries, Hungary, France, U.K. as examples of different forms 
of anti-Semitism going from the extreme right to the extreme 
left.
    In my remarks today, I would like to focus briefly on anti-
Semitism in Hungary. Anti-Semitism in Hungary is a far right 
nationalist phenomenon, xenophobic. Prime Minister Orban has 
said on numerous occasions that Hungary has U.S. tolerance for 
anti-Semitism and he has strengthened the relationship with 
Israel's government. Yet Jewish community leaders are deeply 
concerned about a number of government activities.
    The first set of actions are what have to do with 
historical memory, the unwillingness to truthfully deal with 
historical Hungarian anti-Semitism, especially during the 
Holocaust. The first example is a Holocaust museum they are 
developing called the House of Fates. And yet, inexplicably, 
they insist on naming a well-known Holocaust distorter to 
develop the museum's program. They also over the past few years 
have honored numerous figures, political and even literary, 
from the World War II era that are deeply anti-Semitic and 
responsible for Jewish deaths.
    The second set of problems are what I call dog whistle 
anti-Semitism. Prime Minister Orban's party has employed subtle 
but clear Nazi-era anti-Semitic memes: the laughing Jew, the 
Nazi meme of the Jewish puppet master. In fact, Orban's speech 
in the parliamentary elections in 2018 were so rife with vile, 
classic, anti-Semitic language that a National Review writer 
who had been sympathetic to the Fidesz government said: It 
reads like something right out of the protocols of the Elders 
of Zion.
    So what do we do? Clearly, there are no silver bullets. We 
have to be doing multiple things. If you talk to experts, they 
talk about the importance for security for Jewish communities 
but also other endangered communities. We have to deal with 
hate crime data--and I am sure our OSCE representative will 
talk more about this--collect it better.
    We talked about education. Education will be crucial, and 
social media and dealing with social media. But one thing I 
want to mention here that we cannot do, and that is let anti-
Semitism become just another partisan wedge issue. If we do, we 
will lose this battle. We need bipartisanship on this issue.
    I recommend a number of things in my testimony. I just want 
to mention that the--I want to ask you to urge your Senate 
colleagues to pass legislation similar to H.R. 221, which 
raises the status of the special envoy to monitor and combat 
anti-Semitism at the State Department, to the Ambassadorial 
level. Doing that, as well as making sure the office has enough 
resources, is critical at this time.
    In conclusion, I would like to paraphrase the comments of 
one French leader I met when I visited at the State Department 
who told me, in the aftermath of violent incidents that hit his 
community, he said, this is not ultimately about us. It is not 
about the Jews. The Jewish community may be the first group 
that faces this type of hate, but we will not be the last. This 
is about the very values of the French republic, the very 
values that sustain democracy.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Forman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Keating. Thank you, Mr. Forman.
    Ms. Edwards.

 STATEMENT OF CHRISTIE J. EDWARDS, ACTING HEAD, TOLERANCE AND 
  NON-DISCRIMINATION, OFFICE FOR DEMOCRATIC INSTITUTIONS AND 
  HUMAN RIGHTS, ORGANIZATION FOR SECURITY AND COOPERATION IN 
                             EUROPE

    Ms. Edwards. Chairman Keating, distinguished members, thank 
you so much for the opportunity to join you today. I am coming 
from the Warsaw-based Office for Democratic Institutions and 
Human Rights for the Organization for the Security and 
Cooperation in Europe.
    And my office provides support, assistance, and expertise 
to participating States and a civil society promoting 
democracy, rule of law, human rights, and tolerance and 
nondiscrimination.
    OSCE participating States recognize that manifestations of 
discrimination and intolerance, such as anti-Semitism, racism, 
xenophobia, and hate crimes threaten the security of 
individuals, communities, and societies and may give rise to 
wider scale conflict and violence that undermine international 
stability and security. For this reason, OSCE participating 
States strongly condemn racial and ethnic hatred, anti-
Semitism, xenophobia, and discrimination as well as persecution 
on religious or belief grounds and have committed to combat 
these phenomena in all of their forms.
    The past few years have evidenced a trend away from a 
global culture of respect for human rights. Anti-Semitism, 
racism, and xenophobia continue to be an issue of concern 
across the OSCE region. Some minority communities, including 
people of African descent, Roma and Sinti, and persons with a 
migrant background, including refugees and asylum seekers, are 
disproportionately affected and targeted by security policies 
that include racial and ethnic profiling.
    Additionally, numerous hate crimes against these 
communities and other minority communities can be seen across 
the OSCE region as contributions to the ODIHR annual hate crime 
report show. While this has resulted in a broader and more 
visible dialog on the existence and impact of hate crimes 
throughout the OSCE region, it also threatens to reorient the 
focus of ODIHR's work from proactive to reactive.
    Occupying the vast area and fulfilling human rights left 
open by government, civil society has globally been put on the 
defensive in this work. The OSCE region has, unfortunately, not 
been spared this challenge as groups active in the promotion of 
tolerance and nondiscrimination and the identification of hate 
crimes are often branded as agitators and accused of 
destabilizing communities and societies. The subsequent 
withdrawal of many groups from the regional discourse has 
resulted in a lack of transparency and given license to the 
persecution of vulnerable groups.
    Additionally, human rights defenders from civil society 
addressing anti-Semitism, racism, and xenophobia are often 
themselves the victims of hate crime, often by association. In 
some participating States, they also report that the rise in 
intolerance leads to an increasing hostile environment for 
their work, cuts in government funding, and other ways of 
impeding their work. There is also a trend of emerging anti-
migrant feelings with feelings of racism directed at a range of 
minority groups accompanied by the intersectional nature of 
many hate crimes.
    We also note that the increasingly technically 
sophisticated tools are needed to understand, analyze, and help 
combat hate crimes, anti-Semitism, racism, xenophobia, and 
discrimination. So, to address this, ODIHR has developed a 
collection of resources and programs to raise awareness about 
discrimination, hate crimes, anti-Semitism, and other forms of 
intolerance.
    Through advising on policy and training of law enforcement 
personnel and educators, ODIHR works to build the capacities of 
governments in preventing and responding to this problem. And 
in my written testimony, I note a couple of different programs 
that we have for civil society, which I am happy to address 
further.
    There is a need to tap further into the potential of dialog 
between governments, faith groups, and civil society, and in 
this light, ODIHR has convened a number of international events 
and trainings to address intolerance and discrimination. In all 
of these activities, ODIHR takes a comprehensive approach and 
brings stakeholders from different sectors and different 
communities to work together on a wide range of tolerance and 
non-discrimination issues.
    OSCE participating States have committed to take steps to 
prevent and address intolerance and discrimination while 
applying a common approach to address all acts and 
manifestations of hate while acknowledging the uniqueness of 
the manifestations and the historical background of each form.
    Different types of intolerance have their own unambiguous 
etymologies and rationale. Yet, in order to address the 
underlying biases and othering that underpins many forms of 
discrimination, we need to be aware of their similarities, 
their interconnected developments, and their constant 
intersection.
    At ODIHR, in line with the comprehensive nature of our 
work, we also believe in the power of building coalitions to 
address intolerance and discrimination, and we have built a set 
of tools for civil society and communities willing to engage 
together. ODIHR remains at the disposal of OSCE participating 
States, civil society, and other actors in supporting the 
implementation of their commitments to counter intolerance and 
discrimination. I look forward to your questions. Thank you so 
much.
    [The prepared statement of Ms. Edwards follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Keating. Thank you, Ms. Edwards.
    Dr. Williams.

      STATEMENT OF DR. ROBERT WILLIAMS, DEPUTY DIRECTOR, 
 INTERNATIONAL AFFAIRS, UNITED STATES HOLOCAUST MEMORIAL MUSEUM

    Dr. Williams. Thank you, Chairman Keating, and members of 
the subcommittee not only for convening this discussion but for 
your leadership on this crucial issue.
    It is my great honor to speak on behalf of the United 
States Holocaust Memorial Museum. At the museum, we inspire 
citizens and leaders in the United States and abroad to 
confront hatred, to prevent genocide, and to promote human 
dignity through active engagement with the Holocaust.
    Why the Holocaust? We focus on the Holocaust because it was 
an unprecedented catastrophe because it involved multiple 
societies and cultures and did not respect any borders and 
because its scale was so vast we had to invent new 
international systems to cope with the damage.
    The Holocaust resonates in part because it warns us that 
the unthinkable is always possible, that all of us must rise 
above our potential to abuse privilege, and that we cannot 
remain on the sidelines when we encounter hatred.
    With the passing of the generation of Holocaust survivors, 
it is both more difficult and more necessary to counter anti-
Semitism and hate in all of their forms. In addition to working 
at the museum, I am the chairman of the Anti-Semitism Committee 
at the International Holocaust Remembrance Alliance, a 34-
Nation body of diplomats and experts who gather to deal with 
these issues. And I can tell you that today, one of the more 
increasingly common manifestations of anti-Semitism is 
distortion, less so denial of the Holocaust. This is something 
that spreads from the Russian Federation all the way to Ireland 
and from Finland to Italy. No country is immune.
    Now, there are many reasons for this. But one, to borrow 
from H.G. Wells, is our collective, ongoing race between 
education and catastrophe. Unfortunately, catastrophe seems to 
be leading the way. Decades of investment in scholarship, 
secondary education, Holocaust survivor testimoneys, and 
commemoration built awareness of the Holocaust, but more is 
needed.
    For example, a recent study found that, in France, 57 
percent of adults do not know that 6 million Jews died during 
the course of the Holocaust; 45 percent of French millennials 
are unaware that the French Government under Petain 
collaborated with the Nazis. Similarly disheartening results 
can be found elsewhere.
    Clearly, Holocaust education needs reinforcement over both 
the long and the short term, and it needs to be extended to new 
audiences. To do so, we Americans should work with our European 
allies and with intergovernmental bodies in order to first 
expand and strengthen the infrastructure of European 
institutions that can provide authoritative information on the 
Holocaust and help counter anti-Semitism and extremism.
    Consider my home institution, the United States Holocaust 
Memorial Museum. With consistent support by the U.S. Congress 
since 1993, my institution has hosted more than 45 million 
people onsite at our museum here in Washington, and more than 
that, close to 20 million people from 238 countries and 
territories each year accessing our online resources. Imagine 
if there were similar institutions in the lands where the 
Holocaust occurred.
    Second, we must work with our European allies to ensure 
that funds do not go to organizations that promote anti-
Semitism, Holocaust distortion, or other forms of hate. It is 
surprising, but it happens more often than you may think. I 
have a few examples in my written testimony.
    Third, we must develop sustainable training programs for 
public servants that communicate the relevance of the Holocaust 
to their work. These programs should target civil servants, law 
enforcement, military leaders, legislators, and other 
government professionals. It might highlight the failures of 
their predecessors to not stand up against encroaching fascism 
or instruct on the warning signs that threaten our core 
transatlantic values or teach how to counter resurgent anti-
Semitism and bias.
    There is no more American ethic than taking on the 
responsibility to do more, and doing more in this arena can 
help us continue to build a future that can avoid the 
calamities of the past and ensure that the Holocaust resonates 
for future generations. But if we do not act now, if we do not 
educate better, if we do not train more audiences, and if we do 
not equip ourselves to resist anti-Semitism and extremism, we 
will have failed the victims, we will have failed the 
survivors, and we will have failed one another. Thank you.
    [The prepared statement of Mr. Williams follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Keating. Thank you, Dr. Williams.
    Rabbi Baker.

STATEMENT OF RABBI ANDREW BAKER, DIRECTOR, INTERNATIONAL JEWISH 
 AFFAIRS, AMERICAN JEWISH COMMITTEE, PERSONAL REPRESENTATIVE, 
CHAIRPERSON-IN-OFFICE ON COMBATING ANTI-SEMITISM, ORGANIZATION 
             FOR SECURITY AND COOPERATION IN EUROPE

    Rabbi Baker. Thank you, Mr. Chairman, for this opportunity 
to address you and the committee.
    I have served for almost 30 years in my AJC role working 
with Jewish communities in Europe and in the last 12 years with 
the OSCE as a Special Envoy on Combating Anti-Semitism, which 
has allowed me to bring up this issue in about 30 of those 
countries. So let me suggest a kind of quick basic framework 
with which to look at the problem and identify the concerns and 
try and mobilize for action. More complete information you will 
find in my written testimony.
    I would say what we want to do, quite simply, is define the 
problem, recognize the sources of where the problem is emerging 
in Europe, and mobilize. How do we mobilize governments and 
others to deal with the problem? The issue of definition ought 
to be apparent by now. Anti-Semitism presents itself in various 
forms. It is prejudice. It is discrimination, but it is also 
conspiracy theories. It is Holocaust denial. It is also anti-
Semitism as it relates to Israel, as when the State of Israel 
itself is demonized. It is important that societies understand 
it; that police, prosecutors, judges, and monitors recognize 
this multi-dimensional nature of anti-Semitism. We need to be 
able to recognize the different sources, the places from which 
anti-Semitism is coming today.
    There are five areas to look at and identify. We see anti-
Semitism from the right, often present in extremist neo-Nazi 
groups, and in the growth of right-wing extremist parties where 
anti-Semitism is a part of their agenda.
    We see anti-Semitism on the left, a kind of anti-Semitism 
folded into left-wing movements and parties. The most notable, 
most evident had been Jeremy Corbyn and his cohorts in, the 
Labour Party in the U.K., where anti-Semitism is thinly 
disguised as a kind of anti-Zionis and that anti-Israel animus 
coming forward.
    We see anti-Semitism coming in different countries in 
Europe from parts of the Muslim and Arab communities. Here it 
may be generated by antagonism stemming from conflicts in the 
Middle East and perhaps a kind of imported anti-Semitism from 
those countries, but it has probably been the source in Western 
Europe of most incidents of anti-Semitism that Jews themselves 
have identified.
    Finally, we need to see that there are other aspects of 
anti-Semitism, that are not so much along a political spectrum. 
Holocaust distortion is a form of anti-Semitismin countries of 
Central and Eastern Europe, places where the Holocaust 
occurred, countries that did not really come to terms with 
their own history of participation, of collaboration. They 
could not do this until the fall of Communism, and what we saw 
was a kind of revival of their Fascist-era heroes and figures. 
The idea that somehow these people could be honored despite the 
role they played in the Holocaust is a terrible situation that 
we see in various countries. But its threat to the safety and 
security, to the physical and emotional comfort of Jews who 
themselves are largely communities of survivors and their heirs 
ought to be evident.
    Additionally, we see efforts in a number of Northern 
European countries to ban or restrict traditional religious 
practices, namely religious slaughter, kashrut, and ritual 
circumcision, Brit Milah. These may not be anti-Semitic by 
design, by intent, but they ultimately are anti-Semitic in 
effect, meaning Jewish communities could be prevented from 
observing ritual practices and parts of their religious life 
that has been with them for centuries.
    These are areas where we see the present day problems. The 
question now is what do we do? How do we mobilize governments? 
What can they do? The issues are clear. Security is first and 
foremost. We can only address anti-Semitism by understanding 
it. Thus, adopt that working definition of anti-Semitism so 
that society has a complete picture.
    Education. We have heard much about education dealing with 
the Holocaust, but that education also ought to include the 
long histories of Jewish life in these countries, so students 
understand what Jews contributed to those societies, and not 
see them only as victims in the Holocaust that followed.
    These elements, I think, all put together can give us a 
picture of the problems we face and the goals, the efforts that 
we ought to be asking our European partners to undertake. Thank 
you.
    [The prepared statement of Rabbi Baker follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Keating. I thank all of you.
    A couple of points as I went through. The consistent thread 
was the issue of security, law enforcement, training. Before I 
was in Congress, I was a district attorney, and we had our own 
office, and we had programs on training prosecutors, educating 
prosecutors, training them, and police, including not only the 
police attached to us at our office but local police forces. 
When we had these programs, not only were the police willing 
participants, but they were enthusiastic, given the chance to 
get involved in this, but there were funding issues.
    And, also, I think, important for today's hearing, the fact 
that somehow the pressing issues of the day and the week and 
the budgetary issues, this well-intended effort probably on 
some of the forces would keep getting pushed aside by the 
leadership. So I think one of the lessons of today is the 
importance of that. We can make all the laws we want. If they 
are not interpreted--if they are not recognized when they are 
in violation or they are not enforced, those laws become 
meaningless. So that is an important thread I heard. I am glad 
these programs are being done outside the country as well, and 
if we can find ways to support that, let us know. Certainly 
come to us as a committee.
    The other thing is it is a little different politically in 
Europe and in the U.S. in this respect. They're parliamentary 
in nature, and there are multiple parties and coalitions. And 
the differences between those parties as they try and become 
larger or build coalitions, not the kind of coalitions we were 
talking about necessarily here, but there is a different 
political landscape there with these coalitions.
    And I recall trips that we took as Members of Congress 
where we raised issues with specific political parties within 
those countries saying, you know, you are gathering together. 
You are combining with these other groups that are clearly hate 
groups. And we called them out on it as, you know, part of the 
U.S., but can you just enlighten us a little bit with your 
experience internationally? That is a difference and there is 
more pressure with these coalitions that are built to have 
small minority people have greater influence because that could 
push them over the top of the coalition.
    Ms. Edwards, I know you are anxious to address that.
    Ms. Edwards. Thank you. Yes. Well, of course, as many of 
you might know, some of the flagship programs that ODIHR has 
been offering for many years now are training on hate crimes 
for police and for prosecutors. And so that is one of the major 
efforts that we do make with governments across the OSCE 
region, and that has been highly successful and well 
implemented series of programs. And we are actually very 
grateful for the United States and their recent contribution to 
that work. So I would definitely agree with your statement that 
this is something that we found to be very effective but also 
something that many police forces and prosecutors are very 
enthusiastic about. It is certainly helpful in their work.
    To your points regarding coalition building, this is an 
issue that we address more regularly with members of civil 
society rather than political parties. And I think it could go 
both ways. I think that obviously the tools that we have for 
civil societies who are building coalitions are to build 
coalitions specifically addressing intolerance and 
nondiscrimination, and--I am sorry--intolerance and 
discrimination. So we are encouraging them to join with groups 
that might be completely different than their own perspective, 
whether it is a Jewish community, Muslim community, LGBTI, 
people of African descent, refugees, migrants, et cetera. We 
encourage work all of them to come together because there are 
so many issues in areas where they do have things in common, 
where they do face similar challenges, and where they can 
support--as Representative Meeks said, you know, he wants the 
Jewish community to stand up against racism as well as----
    Mr. Keating. What if we could--about the issue of these 
political coalitions because we see that all the time, even in 
the most democratic of countries. We see coalitions, political 
coalitions within parties coming together so they have enough 
for the majority. And they seem to be embracing, frankly, other 
groups, political parties that are some of them racist, clearly 
racist. I mean, we do see it. Is there any comment that--I 
know, Mr. Forman, you touched upon it. That is what got me to 
thinking about this question.
    Mr. Forman. So, in a parliamentary situation, one of the 
things I was struck with when I was at the State Department was 
the influence of the United States on our European allies, and 
I talk often with my students about where our influence is 
greatest.
    A lot of times we have allies in Europe who are doing 
things on anti-Semitism which we are very--we think they are 
trying their best. And the problems are largely civil society. 
We have actually more influence when the government is part of 
the problem. Countries often, as in eastern Europe, where, 
again, they want U.S. support. I think you touched on it, Mr. 
Chairman, that the administration, any administration needs to 
speak out on some of these things.
    Where we have neo-Nazis being possibilities in coalitions, 
it is essentially we are embarrassing, we are shaming people, 
and I think on some levels, Members of Congress also have that 
ability. These hearings, hearings like this, hearings on 
specific countries have that power.
    And the other thing is there is an organization of 
parliamentarians against anti-Semitism. It has not been very 
active, but U.S. Members of Congress could take a more leading 
role in that organization and encourage parliamentarians to 
push on whether issues like this or other issues we think they 
could be doing better on.
    Mr. Keating. Since my time is up, I will recognize 
Representative Pence, but I think for the other members of the 
panel, you will have an opportunity, I think, to address those 
kind of issues with the other questions.
    Representative Pence.
    Mr. Pence. Thank you, again, Chairman Keating and Ranking 
Member McCaul, for having this hearing, and thank you all for 
being here. I think you heard that I am in the family business 
on anti-Semitism earlier, and it is education, education, 
education. I would like to start by highlighting my home State 
for its work to educate the next generation of Hoosiers about 
the Holocaust. Indiana is currently one of only 12 States that 
requires Holocaust education as part of State curriculum. I 
would like to commend Governor Holcomb, who declared January 
27th to be Eva Education Day in honor of Auschwitz survivor and 
Hoosier Eva Kor.
    To all the witnesses, thank you for your time. I appreciate 
you sharing your experience. Rabbi Baker, I think you put it 
wonderfully and simply in your testimony, quote: Education 
matters, and all of you, actually, everyone today mentioned the 
education. I could not agree more. This point is an important 
theme in all the testimony we have heard today: education, 
education, education. This morning I had a long conversation 
with Department of State Special Envoy to Monitor and Combat 
Anti-Semitism Elan Carr. Special Envoy Carr highlighted that we 
know the three distinct sources of anti-Semitism, which is--was 
mentioned repeatedly today: far right Neo-Nazism; radical left 
anti-Israeli-ism, if you will; and militant Islam. To talk 
about only one source is to not take the problem seriously. Mr. 
Carr's most important message to me, one that I think is worth 
emphasizing in this chamber is that it is important to fight 
all of it, all anti-Semitism wherever it rears its ugly head. 
Like many of the witnesses, Special Envoy Carr emphasizing 
importance of education combating the spiritual sickness that 
is anti-Semitism.
    I am grateful for Special Envoy Carr's time and very proud 
of the work he and his team are doing to ensure the United 
States is leading voice combating anti-Semitism around the 
world. We are truly blessed with amazing professionals 
dedicated to this important mission, like those of you at the 
table here. America is and must remain the leading voice in 
combating anti-Semitism around the world, and while we must 
call out both our partners and nonpartners alike who fall short 
of the mark in addressing anti-Semitism and hate, I sincerely 
hope and appreciate that this conversation also includes 
scaling up our efforts to work alongside likeminded nations 
toward our common goals.
    I do not have a question for the witnesses today; I simply 
want to say that I am grateful to you, Chairman Keating, for 
convening such an important hearing. I am thankful to all the 
witnesses for briefing the committee. Finally, I would like to 
close by saying that myself and my entire family have always 
been and always will be committed to pushing back against hate 
in all of its forms, and this week, in particular, I am proud 
of my home State and the work of the U.S. Government to combat 
the evil of anti-Semitism at home and abroad. I am proud that 
this subcommittee has devoted time to this important issue as 
there is always room to do better. I look forward to working 
with everyone in this room to continue to combat anti-Semitism.
    Mr. Chair, thank you. And I yield back the balance of my 
time.
    Mr. Keating. Thank you, Representative.
    Vice Chair Spanberger.
    Ms. Spanberger. Thank you, Mr. Chairman.
    I would like to begin by asking questions on behalf of my 
colleague, Representative Frankel, who had to leave to another 
meeting, but she was kind enough to task me with her questions. 
Her first question is, can you assess overall what European 
governments' responses are to rising anti-Semitism and how 
effective they are? And the second piece of her question, which 
I think might direct some of your answers, are European 
governments coordinating on data sharing and hate crime sharing 
across borders, and do you see this being effectively addressed 
at the EU level?
    And I will open it up to whoever would like to speak to 
this questions.
    Mr. Williams. So perhaps I will just start, and then I will 
hand it over to my colleagues because we are all engaged in 
this together, overlapping at times. Concerning European 
government responses, it will not surprise you to know that 
those responses are inconsistent across borders. It depends on 
the State, and it depends on how seriously they view anti-
Semitism as a domestic issue as opposed to an issue that they 
like to displace on other countries. There is a tendency in 
some European countries to say that anti-Semitism is a problem 
only of France. ``We do not have anti-Semitism here because we 
do not have a Muslim population, for example.'' This form of 
displacement is increasingly common in certain central European 
countries. There are other times where anti-Semitism is 
displaced as a legacy from the Second World War, but you are 
seeing this rhetoric more often than not emerging from the 
Russian Federation vis--vis Baltic member countries or Poland.
    So there is no single formula. Now there are convening 
bodies of which the OSCE is one. I will let the OSCE ODIHR 
speak for itself. The other would be the European Union's 
Agency for Fundamental Rights where there are attempts to 
collect data and to issue recommendations on how to deal with 
anti-Semitism, but as the so-called FRA notes in its most 
recent report, which came out at the end of last year, 
inadequate reporting of hate crime incidents, in particular, 
anti-Semitism makes their work exceedingly difficult. Added to 
this, there is a report also done by the Fundamental Rights 
Agency that notes that 79 percent of Jews in, at least, 12 EU 
member countries do not report hate crime incidents when they 
happen. This is because they believe that, even if they told 
the police, nothing would happen as a result.
    So there are problems to be solved. I think there is also a 
demand for American leadership and American expertise. I see 
Representative Pence--I wanted to mention something specific to 
Indiana, which is hard for a boy who grew up in Kentucky, but 
IU, in particular, has a model that may be worth exporting 
abroad. IU is one of the only universities in the world that 
has an academic center focused on the study of anti-Semitism. 
And more than that, IU has been one of the central universities 
in the United States teaching the essential foreign language 
skills needed to confront anti-Semitism today. Those foreign 
languages, in particular, include Russian and Ukrainian. Thank 
you.
    Rabbi Baker. I think one of the real challenges and 
questions, if you compare countries, is really, what is the 
political will to deal with these problems. In some of these 
countries, I would say the first problem is the question of 
physical security for Jewish communites, and it took some years 
for governments really to step forward. They have made partial 
progress, but hopefully one can look at what one country is 
doing to try to press or encourage another country to follow 
suit.
    I think as recently as, 2012, 2013, we saw serious attacks, 
but little effort on the part of governments to really realize 
the threats facing Jewish communities, let alone doing 
something about them. More and more they are doing something 
now. They are providing funding. They are trying to coordinate 
with their own police and so on. There have been tragic events 
where they were simply not there when they should have been, 
and so I think that is one area where there is growing 
recognition and action on the part of governments. At the same 
time, those threats have not disappeared, and even if buildings 
themselves are protected, Jews going to and from synagogue or 
schools or simply walking day-to-day in the streets are 
vulnerable, and it may not always be physical attacks but 
verbal harassment and the like. So that is something that is 
present as well.
    When we talk about education, I think it becomes so 
important to say: Understand that Jews are part of your 
society, and even as there is a focus on Holocaust education, 
keep in mind that that Holocaust history often presents a very 
limited and distorted picture of what Jewish life is or was 
like. Our own organization analyzed the textbooks, of several 
European countries, and typically we found Jews appeared 
twice--2000 years ago to explain the coming of Jesus and 
Christianity, then they disappear, and return only in the 
1930's and 1940's to be victims in the Holocaust.
    So, to try to get a full picture of who they are, 
particularly in societies where Jews are few, is a challenge. 
It requires government support, not just in education but 
supporting museums and the like. And here, too, I think, good 
examples in one place can help leverage others. The European 
Union, the European Council has important declarations. It is 
up to governments to follow through. Similarly, in the OSCE, 
there are a great number of significant commitments that 
governments have made in security and education, in police 
training, in collecting data, but countries really need to be 
encouraged to live up to those commitments.
    Ms. Spanberger. Thank you.
    Ms. Edwards. Can I answer your question about the data 
collection? This is actually one of the biggest flagship areas 
that my office actually works on, and we produce the largest 
collection of hate crime data in the world every year on 
November 16th on the International Day of Tolerance. And, of 
course, anti-Semitism is one of the issues that is covered, as 
well as racism, xenophobia, anti-Muslim bias, LGBT, many, many 
forms of bias, and this is, of course, reported to us by all of 
the OSCE governments, or, at least, most of them, but this is 
one of the commitments that OSCE countries have made to provide 
that data to ODIHR every year so that we can publish it.
    We also publish a significant amount of information given 
to us by civil society and international organizations as well. 
But to your question about what can countries be doing better, 
this is an issue that we spend a lot of time in my departments 
working on. As Rob mentioned, we do a lot of trainings, often 
in coordination with FRA to assist participating States in 
improving their data collection efforts because we--and some of 
the studies that we have done have shown that we know--we get 
about 20 percent of the actual hate crimes that occur reported 
to us. So it is a very, very underreported phenomenon, and 
there are many reasons for this that we can obviously spend a 
lot more time talking about, but this is a huge effort, again, 
done by my departments to give us better data, and then that 
helps us, in turn, provide better assistance to governments.
    And one of the programs that was actually significantly 
supported financially by the U.S. Government was a project on 
comprehensive criminal justice approaches to hate crime. And we 
worked with four countries looking at different ways where 
criminal justice agencies in four different countries could 
work better to address these issues from a comprehensive 
nature. So doing joint police and prosecutor trainings, having 
an interagency approach, having studies on underreported 
natures of hate crimes. And then, at the end of that program, 
we brought all of these countries together so that they could 
learn from each other in the things they had gone through, and 
now that is being expanded. And, again, the U.S. has given us a 
contribution to help expand that work into countries beyond 
those four initial countries.
    So there is so much more that can be done. We are certainly 
so grateful for the support of the U.S. Government in doing 
this, but certainly a lot of room to grow in this area as well.
    Mr. Forman. Vice Chair Spanberger, my experience from 2013 
to 2017 at the State Department was there is a whole range of 
government reactions. In general, I would tell you that our 
major allies such as U.K., France, and Germany, I think at 
least at the Federal level, there is a real understanding, not 
only that they have to protect their Jewish communities, but 
this is an existential threat to their Democratic ways. I think 
you hear that and actually even, for example, in France when 
you went from a socialist government to the Macron Government, 
that kind of attitude stayed generally at the top, at least. 
And I think that oftentimes we will see, for example, in a 
place like Germany, they want to do the right thing; they often 
do not have the answers.
    When they have such large immigrant populations from 
countries where anti-Semitism attitudes are very high, they 
know that is a problem. They know 10 years down the road it 
could be a huge problem, and they are trying to think about how 
do they solve that problem. They do not know and, frankly, I do 
not think we know either, but some collaboration would be 
helpful.
    Once you get past those countries, there is a range of 
attitudes. There is apathy, there is ambivalence in some 
countries in terms of how important this issue, and in some 
countries, frankly, anti-Semitism is used as a political tool. 
It can be used in election campaigns by using anti-Semitism. 
Sometimes it is, ``Oh, look at how well we treat our Jewish 
communities.'' So there is a real range. And, frankly, things 
could change. For example, U.K. Governments both Labour 
governments earlier and Conservative governments have been very 
responsive and worked very closely with Jewish organizations 
like this Community Security Trust on security. They have been 
great, but if we had a change in governments, if we had a 
Labour government now, this would change dramatically. We would 
have real problems at the top at the U.K., so this is a whole 
range and a panoply, and I think as we look as a U.S. 
Government on how we address this issue, it is not simple. 
There is no cookie-cutter approach. We have to go country by 
country and the bilateral relationship to the United States and 
those countries is critical.
    And, again, political leadership starts it, but it is not--
and our political leadership working with them sometimes in 
private diplomacy, sometimes in public diplomacy.
    Ms. Spanberger. Thank you very much.
    I yield back.
    Mr. Keating. Thank you. Just a final comment, and you could 
react to this if you want, but you brought up the issue, and it 
is a challenge generationally. You know, one of the things that 
I have discussed with my counterparts in the European Union and 
other European countries was the fact that the lack of 
understanding of historical coalition that we had, why NATO was 
based, why it was formed because the generation before, at 
least, me, they were participants. It was part of their real 
life. It occurred. They lived it. But the subsequent 
generations, they really do not quite understand that because 
they have not lived it. And we talked about, in terms of issues 
of security, how we have to work together on both sides of the 
Atlantic to make sure the next generation understands better 
and the generation after that because that is a real challenge. 
And, you know, when I was looking at the comment, I think, Dr. 
Williams made about, you know, denial is less used in 
distortion now, and if you have not lived it and you do not 
have that experience, it is that much harder to just educate 
and make people aware of it and that is another challenge. You 
know, I was in--several years ago when I was in Berlin, I was 
walking around and I was absolutely stunned because I looked 
around, and there was a huge set of murals of Adolph Hitler in 
his Nazi uniform all with his chief of staff and all his--all 
the names we recognize so well, the leading Nazis that worked 
with him and I said, what is that doing there? And I looked 
over and in the murals was historical, you know, explanation of 
what happened right out there in the public so you could not 
miss it. And then across the street--some of you might know--
across the street was a park of stones and each of those stones 
represented victims in the Holocaust, and there it was. You 
could not miss it. Now that is not going to solve all the 
problems, but it is the kind of thing that is important because 
it is helping those other generations understand that something 
happened, and importantly, that these things were real.
    Hitler was real to my parents and that generation. They 
knew his evilness. They knew it existed in the world. It is so 
much harder transcending generations because he is some kind of 
character that is out there, and that is--when they have that 
kind of lack of real-time experience, it is easy to distort the 
way that they are doing that, whether it is social media or 
not.
    So that is part of our challenge, whether it is done, but 
we have to acknowledge what happened, and we have to make--we 
have to realize those of us that are touched with the 
generation that went to war and closer to it, that--or lost an 
uncle, as I did in World War II, I mean, those things are real. 
Now, the Holocaust Museum does a terrific job of making it 
real, but we have to find ways throughout all our communities 
and in other countries the fact that this existed, evil exists, 
it exists today, and we have to challenge it and acknowledge 
it.
    So, if you want to end with a closing statement on those 
things, and then I will give a second round before I give my 
closing statement if the vice chair wants more--maybe I will do 
this. I will have the vice chair--the day has been long--I will 
give the vice chair a chance to ask and you can address all of 
those issues.
    Ms. Spanberger. Thank you, Mr. Chairman. I am so grateful 
for all of the time that you have spent with us. We have talked 
a lot about the need for education. Our first panel mentioned 
it, you all have mentioned it, and we have talked a lot about 
what happened in the Holocaust, the magnitude of the Holocaust, 
and I think Dr. Lipstadt made an interesting point when she 
said the Holocaust could not have happened without hundreds of 
thousands of helpers, people who either helped through 
aggressive action or people who helped by their silence. And we 
also see that, throughout history, there are ebbs and flows, 
and the data show that, in fact, right now we are seeing an 
uptick in Europe, in the United States, in anti-Semitic 
violence and rhetoric and so my question is, in addition to 
educating ourselves on what happened, I would love your 
comments, having read a fair amount about this just on a 
personal level, about what is wrong right now? What are we 
doing? What are some of the weaknesses in our society, be it 
economic, be it social, that is allowing for this sickness to 
take hold in a way that it hasn't as deeply in recent past and 
we see trends of what happened before Nazi Germany took hold? 
And I would love for you to comment socially, economic, 
political, what are the weaknesses, and how can we educate 
ourselves to inoculate ourselves against those weakness so that 
we can root out this sickness aggressively and ensure that, in 
fact, it is a never again reality that we all live? I will open 
the question to anyone who wants to answer.
    Mr. Williams. So maybe I will start. It is a very 
complicated question. I will not try to characterize the rise 
of populist governments in Europe in a few statements, but we 
do have--we are in a State, akin to whatever Professor Lipstadt 
said, where the guard rails have come off to a certain extent. 
There have been significant changes to the way that we educate 
not just on the other side of the Atlantic but closer to home 
as well. We often think of education in economic terms. There 
is a logic to this, of course, but it is not certain that our 
new modes of educating are promoting or creating the citizenry 
that we aspire to in the immediate post-war era. Are we 
teaching enough ethics? Are we teaching enough civics? There is 
no easy answer there.
    Part of it is also the breadth of what we educate. As Rabbi 
Baker noted, oftentimes when we talk about education about the 
Jewish experience, we get Israel 2,000 years ago, and then we 
get the Holocaust. We do not get the ways by which Jews have 
contributed to our societies and our culture. So we are seeing 
not just Jews but other subaltern groups, to use a very 
academic term, only in snippets. There is also, if I may, a 
tendency 75 years after an event for history to become subject 
to what some are calling denialism, some are calling the post-
factual reality. This did not just happen in the case of the 
Holocaust, this happened in the case of the French Revolution. 
You need people to carry forth that history, especially when 
you are dealing with an event like the Holocaust, which was a 
civilizational break akin to the French Revolution, akin to our 
own revolution, that reshaped society, and if we reinsert these 
events in a way that have real meaning, like our revolution has 
meaning for our students today, perhaps then we will return to 
a more proper path.
    Mr. Forman. I would like to say that I do not want to be a 
pessimist here, but I think we have to recognize that we are 
not in the business of ending anti-Semitism. It has been 
alluded here it has been around at least 2,000 years. We can 
count on it is going to be around for centuries to come. We 
cannot eliminate it, but we can turn down--I like to use the 
metaphor of a faucet. We cannot turn the faucet off, but we can 
turn it down. But even that is difficult because it takes 
multiple strategies, and we have talked about some security 
strategies, we have talked--and there is all kinds of things to 
talk about in security, but, frankly, security as essential as 
it is does relatively little to tone down anti-Semitism. 
Perhaps prosecution will give some--strong prosecution will 
deter some violence, but, by and large, it is absolutely 
essential, but it is more like a Band-Aid than a cure.
    We talked a lot about education and I would like to address 
the chairman's talk about what education works, but, frankly--
and we talk about political leadership, which I think is 
essential. Starting at the top but going down all the way to 
the local level. The one thing we do not talk a lot about--and 
it is not a magic bullet, it is not a silver bullet, it is not 
a magic wand, but an important piece--and that is civil 
society. We are not going to do this with just governments. We 
are not just going to do this with the Jewish community. We 
need to mobilize civil society. How do we do that? Well, 25 
years ago in Billings, Montana, probably a white nationalist 
threw a cinder block through the window of a Jewish home where 
there was a Hanukkah menorah. Very few Jews in Billings, maybe 
150, and there was this spontaneous reaction in civil society--
religious leaders, all kinds of different denominations of 
Christian leaders, there were the local/political electeds, 
there were civic leaders, there were business leaders and the 
newspaper--that they had menorah marches. People put that--the 
paper published a menorah that they put in their windows. That 
message was to the white nationalists: You are not part of our 
society. We are going to ostracize you, and we are going to 
support the victims.
    Now that has to be done for anti-Semitism, but other forms 
of bigotry too. How do we generate that at a local level? How 
do we--we have probably the strongest civil society in the 
world, and yet perhaps there is some signs its weakening, and 
it does happen in Europe as well. There was in Italy just the 
other day a concentration camp survivor's home, she died a few 
years ago, her son is there and there was publicity in the 
Italian newspapers and someone wrote: Jews live here in 
graffiti on the door. And, again, there was a spontaneous march 
of hundreds of people in that village. We need to learn how to 
generate local leadership as well as to augment our political 
leadership.
    It will not be the silver bullet, but it is an important 
piece when we put it together with a lot of these other pieces.
    Ms. Edwards. I would add that, to address your question 
about some of the root causes here, there has been some 
fascinating studies about the cognitive bases for why these 
forms of racism, xenophobia, anti-Semitism exist and these 
studies show that humans are basically hardwired cognitively 
for an in-group preference, for people who look and speak and 
believe and think like them. And this can basically be overcome 
in two ways: One is being self-aware about one's own personal 
biases, and, two, by meaningful connections with people who are 
different from themselves. And we, of course, at ODIHR 
highlight that this is a huge way in which intolerance and 
discrimination can be overcome is through coalition building, 
civil society as Mr. Forman mentioned, you know, bringing 
people from different backgrounds together to all come together 
and say, you know: Hatred has no place here. We do not accept 
any form of racism, xenophobia, anti-Semitism, et cetera.
    And I think the other key issue that we are working on in 
my office around educational issues, because it does start with 
young people, we have to make sure that young people have the 
tools and resources and that teachers have the tools and 
resources to address this in the classroom. And so we have 
spent the last few years working on educational policy 
guidelines around anti-Semitism, creating teacher tools and 
educational guides on various different forms of anti-Semitism; 
the history, what does this look like when statements are made; 
and giving very clear step-by-step guidelines to teachers on 
how to address it very easily because often they do not have 
the tools or resources or knowledge on how to address some of 
these things. We are also creating video guides and a framework 
curricula around anti-Semitism, and we are taking these tools 
and then expanding them. So we are creating a similar set of 
tools around intolerance against Muslims and hoping to do this 
for other communities as well. So making sure that teachers 
have these tools, not just at a high level, you know, at the 
Federal or national level, but that teachers in the classrooms 
in every part of the country have these resources available to 
them as well.
    Ms. Spanberger. Thank you.
    I yield back. Thank you for the extra question, Mr. 
Chairman.
    Mr. Keating. And thank you Mr. Forman about civil 
engagement. I just want to say that you are on target--and if 
people are listening, there are so many ways to do it. It can 
be done through clergy, through faith-based communities, but it 
can also be done from families. I learned much as a young child 
from my grandmother who talked about the discrimination she 
suffered coming from Europe where they--people in the 
neighborhood banded together to buy the house that they finally 
scrimped up enough money to save for, and they had a 
neighborhood meeting, made phone calls. Fortunately, they were 
not successful, but someone wanted to build a temple right down 
the street where she lived, and the chutzpah of the woman 
organizing the meeting called up my grandmother to see if she 
would get involved, and she would say in her Irish brogue: This 
wouldn't be the same type of meetings you had about me, would 
it?
    But she told me the story when I was a young boy, and one 
way we can civilly engage is families should tell the stories 
while the generations are there. We had an event I cosponsored; 
it was a leap of faith in Cape Cod in Massachusetts, and it was 
an American mosaic. It was just an idea. We threw it out there. 
We did not know if it would succeed. We just put in the 
newspaper and asked people to come together and tell their 
family stories. We had people come from Europe, so many came 
from Europe and their families came in the 1930's to escape 
what was occurring there that is the subject of today, the 
Holocaust, and they told remarkable stories of their family.
    We had people telling stories from parts of Asia and how 
they came here. We had people whose generationally they did not 
come here voluntarily. Their families came as slaves, and they 
told stories about lynchings from their grandparents. They told 
stories about how their parents' parents could not get married 
legally, what happened. So many different stories.
    So, Mr. Forman, there is no dearth of opportunity to engage 
civilly in this and hopefully we can come from this.
    And just a final note. This is the Foreign Affairs 
Committee, and I think we have a special place when we deal 
with issues of the Holocaust and anti-Semitism. I know all of 
the committees in Congress and all the Members of Congress 
share a real concern and a need to speak up and go forward and 
be leaders, but the Foreign Affairs Committee from the seats 
that you are in, if you could look up to your right and see the 
portrait that is hanging there on the furthest to the left, 
that is the portrait that is hung of Tom Lantos. Tom Lantos was 
the only Holocaust survivor to serve in Congress, and he was 
the former chair of the Foreign Affairs Committee, and he 
founded the human rights caucus which later was transformed 
into the Tom Lantos Human Rights Commission. So I am sure, as 
he is looking down at us now, he would be very proud of the 
committee today, of your participation here today, of the 
thoughtful and moving comments that our two panels have made, 
as well as the comments of members of the committee.
    So I thank you for being a part of that today and, with 
that thought in mind, adjourn.
    [Whereupon, at 4:39 p.m., the subcommittee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre></body></html>
